No. 20-255
IN THE

Supreme Court of the United States

d

MAHANOY AREA SCHOOL DISTRICT,
Petitioner,

—v.—

B. L., A MINOR , BY AND THROUGH HER FATHER ,
LAWRENCE LEVY, AND HER MOTHER , BETTY LOU LEVY,
Respondents.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF FOR RESPONDENTS
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
Jennesa Calvo-Friedman
Vera Eidelman
Arianna Demas
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

Witold J. Walczak
Counsel of Record
Sara J. Rose
AMERICAN CIVIL LIBERTIES
UNION OF PENNSYLVANIA
PO Box 23058
Pittsburgh, PA 15222
(412) 681-7736
vwalczak@aclupa.org
Arleigh P. Helfer III
Theresa E. Loscalzo
SCHNADER HARRISON SEGAL
& LEWIS LLP
1600 Market Street, Suite 3600
Philadelphia, PA 19103

Seth F. Kreimer
3501 Sansom Street
Philadelphia, PA 19104
Attorneys for Respondents

T A B L E O F C O N T E N TS
T A B L E O F A U T H O RI T I E S ...................................... i v
I N T R O D U C T I O N ....................................................... 1
S T A T E M E N T .............................................................. 3
S U M M A R Y O F A R G U M E N T .................................... 8
I.

I I.

A P P L YI N G TI N K E R O U T SI D E O F S C H O O L
W O U L D S E R I O U S L Y U N D E R MI N E T H E
S P E E C H R I G H T S O F Y O U N G P E O P L E ....... 1 1
A.

O ut si d e t h e S c h o ol E n vi r o n m e nt,
Y o u n g P e o pl e H a v e a Fi r st A m e n d m e nt
Ri g ht t o B e F r e e f r o m C o nt e nt -B a s e d
C e n s o r s hi p ................................................ 1 1

B.

Ti n k e r I s a N a r r o w E x c e pti o n t o t h e Fi r st
A m e n d m e nt’ s P r o hi biti o n o n C o nt e nt
Di s c ri mi n ati o n a n d I s Li mit e d t o t h e S c h o ol
E n vi r o n m e nt ............................................. 1 3

C.

Li miti n g Ti n k e r t o t h e S c h o ol E n vi r o n m e nt
M a k e s D o ct ri n al S e n s e ............................. 1 7

D.

E x p a n di n g Ti n k e r B e y o n d t h e S c h o ol
E n vi r o n m e nt W o ul d R a di c all y U n d e r mi n e
Y o u n g P e o pl e’ s F r e e d o m of S p e e c h .......... 1 9

E.

Li miti n g Ti n k e r t o t h e S c h o ol E n vi r o n m e nt
W o ul d N ot P r e v e nt S c h o ol s f r o m
A d d r e s si n g Off -C a m p u s H a r a s s m e nt,
B ull yi n g, T h r e at s of Vi ol e n c e, a n d
Ot h e r H a r mf ul C o n d u ct ........................... 2 4

P
O
P
P

E TI TI O
F TI N K
R E C E D
RI N CI P

N
E
E
L

E
R
N
E

R’ S P R O P O S E D E X P A N S I O N
I S N O T J U S TI FI E D B Y
T , A N D C O N T AI N S N O
D L I M I T ........................................ 2 8

i

A.

T h e P u r p o rt e dl y “ Cl o s el y R el at e d
D o ct ri n e s” P etiti o n e r I n v o k e s D o N ot
S u p p o rt It s P r o p o s e d St a n d a r d ................ 2 8

B.

P etiti o n e r’ s P r o p o s e d R ul e P r o vi d e s
N o Li mit t o Ti n k e r ’ s R e a c h a n d Will
R e s ult i n B ot h C o nt e nt a n d Vi e w p oi nt
Di s c ri mi n ati o n .......................................... 3 2
i. P etiti o n e r’ s P r o p o s e d Li mit ati o n t o
S p e e c h “ Di r e ct e d” at t h e S c h o ol I s
N o Li mit at All ..................................... 3 2
ii. P etiti o n e r’ s A r g u m e nt t h at it s
A p p r o a c h W o ul d N ot C o u nt e n a n c e
Vi e w p oi nt Di s c ri mi n ati o n C a n n ot
B e S q u a r e d wit h Ti n k e r o r P etiti o n e r’ s
A cti o n s H e r e ........................................ 3 4

C.

T h e Li n e D r a w n i n Ti n k e r I s th e S a m e
Li n e t hi s C o u rt a n d L o w e r C o u rt s
H a v e R o uti n el y D r a w n i n “ S c h o ol
S p e e c h” C a s e s ........................................... 3 6

I I I. T H E U N I T E D S T A T E S C O R R E C T L Y
M AI N T AI N S T H A T T H E V A S T A R R A Y O F
S T U D E N T S P E E C H O U T SI D E T H E S C H O O L
E N VI R O N M E N T S H O U L D N O T B E
S U B J E C T E D T O TI N K E R , B U T I T S
P R O P O S E D A P P R O A C H I S I N C O N SI S T E N T
W I T H T H A T P R I N CI P L E ................................ 3 8
I V. I
S
E
I

F T H E C O U R T E X P A N D S TI N K
P E E C H O U T SI D E T H E S C H O O
N V I R O N M E N T, I T S H O U L D LI
T S A P P LI C A T I O N I N T H A T C O

ii

E R T O
L
MI T
N T E X T ...... 4 2

V.

E V E N I F TI N K E R A P P LI E S WI T H O U T
M O D I F I C A T I O N T O O F F -C A M P U S S P E E C H,
T H E S C H O O L D I S T R I C T V I O L A T E D B. L.’ S
F I R S T A M E N D M E N T R I G H T S ...................... 4 4

C O N C L U S I O N .......................................................... 4 8

iii

T A B L E O F A U T H O RI TI E S
C AS ES
A. M. e x r el. M c All u m v. C a s h ,
5 8 5 F. 3 d 2 1 4, 2 1 7 ( 5t h Ci r. 2 0 0 9) ......................... 2 0
A g e n c y f o r I nt’l D e v. v. All. f o r O p e n S o c’ y I nt’l,
I n c ., 5 7 0 U. S. 2 0 5 ( 2 0 1 3) ....................................... 4 1
A n d e r s o n v. C r ei g ht o n ,
4 8 3 U. S. 6 3 5 ( 1 9 8 7) ............................................... 2 7
B. H. e x r el. H a w k v. E a st o n A r e a S c h. Di st. ,
7 2 5 F. 3 d 2 9 3 ( 3 d Ci r. 2 0 1 3) ................................... 1 9
B. W. A. v. F a r mi n gt o n R -7 S c h. Di st .,
5 5 4 F. 3 d 7 3 4 ( 8t h Ci r. 2 0 0 9) ................................. 2 0
B d. of E d u c. of I n d e p. S c h. Di st. N o. 9 2 o f
P ott a w at o mi e Ct y. v. E a rl s , 5 3 6 U. S. 8 2 2 ( 2 0 0 2) . 1 6
B et h el S c h o ol Di st ri ct N o. 4 0 3 v. F r a s e r ,
4 7 8 U. S. 6 7 5 ( 1 9 8 6) ........................................p a s si m
B r a n d e n b u r g v. O hi o ,
3 9 5 U. S. 4 4 4 ( 1 9 6 9) ............................................... 4 2
B r o w n v. E nt m’t M e r c h a nt s A s s’ n ,
5 6 4 U. S. 7 8 6 ( 2 0 1 1) ............................. 1 2, 1 3, 1 8, 2 5
C o at e s v. Cit y of Ci n ci n n ati ,
4 0 2 U. S. 6 1 1 ( 1 9 7 1) ............................................... 1 7
C o h e n v. C alif o r ni a ,
4 0 3 U. S. 1 5 ( 1 9 7 1) ................................................. 1 2
C o n s ol. R ail C o r p. v. G ott s h al ,
5 1 2 U. S. 5 3 2 ( 1 9 9 4) ............................................... 3 4
C uff e x r el. B. C. v. V all e y C e nt. S c h. Di st. ,
6 7 7 F. 3 d 1 0 9 ( 2 d Ci r. 2 0 1 2) ................................... 4 3

iv

D a vi s e x r el. L a S h o n d a D. v. M o n r o e Ct y. B d. of
E d u c. , 5 2 6 U. S. 6 2 9 ( 1 9 9 9) .................................... 2 6
D ef o e e x r el. D ef o e v. S pi v a ,
6 2 5 F. 3 d 3 2 4 ( 6t h Ci r. 2 0 1 0) ................................. 2 0
D e s ki n s v. G o s e ,
8 5 M o. 4 8 5 ( 1 8 8 5) .................................................. 1 4
E r z n o z ni k v. Cit y of J a c k s o n vill e ,
4 2 2 U. S. 2 0 5 ( 1 9 7 5) ............................................... 1 2
F o r s yt h Ct y. v. N ati o n ali st M o v e m e nt ,
5 0 5 U. S. 1 2 3 ( 1 9 9 2) ............................................... 1 1
F ri s b y v. S c h ult z ,
4 8 7 U. S. 4 7 4 ( 1 9 8 8) ............................................... 3 0
G a r c etti v . C e b all o s ,
5 4 7 U. S. 4 1 0 ( 2 0 0 6) ............................................... 3 0
Gi b o n e y v. E m pi r e St o r a g e & I c e C o .,
3 3 6 U. S. 4 9 0 ( 1 9 4 9) ............................................... 2 5
Gi n s b e r g v. N e w Y o r k ,
3 9 0 U. S. 6 2 9 ( 1 9 68) ............................................... 2 5
G r a y n e d v. Cit y of R o c kf o r d ,
4 0 8 U. S. 1 0 4 ( 1 9 7 2) ......................................... 2 9, 3 0
H a r d wi c k e x r el. H a r d wi c k v. H e y w a r d ,
7 1 1 F. 3 d 4 2 6 ( 4t h Ci r. 2 0 1 3). ................................ 2 0
H a r p e r v. P o w a y U nifi e d S c h. Di st .,
4 4 5 F. 3 d 1 1 6 6, 1 1 7 1 ( 9t h Ci r. 2 0 0 6) ..................... 1 9
H a z el w o o d S c h o ol Di st ri ct v. K u hl m ei e r ,
4 8 4 U. S. 2 6 0 ( 1 9 8 8) ............................. 1 5, 3 6, 3 9, 5 2
J a n u s v. A m. F e d. of St at e, Ct y., a n d M u n. E m p s. ,
C o u n cil 3 1 , 1 3 8 S. Ct. 2 4 4 8 ( 2 0 1 8) ........................ 4 6
J e gli n e x r el. J e gli n v. S a n J a ci nt o U nifi e d S c h.
Di st ., 82 7 F. S u p p. 1 4 5 9 ( C. D. C al. 1 9 9 3) ............. 2 1
v

K e yi s hi a n v. B d. of R e g e nt s of t h e U ni v. of t h e
St at e of N. Y., 3 8 5 U. S. 5 8 9 ( 1 9 6 7) ......................... 2 4
L o w e r y v. E u v e r a r d ,
4 9 7 F. 3 d 5 8 4 ( 6t h Ci r. 2 0 0 7) ........................... 2 1, 4 0
M a d ri d v. A nt h o n y ,
5 1 0 F. S u p p. 2 d 4 2 5 ( S. D. T e x. 2 0 0 7) .................... 2 0
M at al v. T a m ,
1 3 7 S. Ct. 1 7 4 4 ( 2 0 1 7) ..................................... 3 5, 4 2
M c C ull e n v. C o a kl e y ,
5 7 3 U. S. 4 6 4 ( 2 0 1 4) ......................................... 1 7, 3 8
M e y e r v. N e b r a s k a ,
2 6 2 U. S. 3 9 0 ( 1 9 2 3) ............................................... 1 8
M o r s e v. F r e d e ri c k ,
5 5 1 U. S. 3 9 3 ( 2 0 0 7) ........................................p a s si m
N. Y. Ti m e s C o. v. S ulli v a n ,
3 7 6 U. S. 2 5 4 ( 1 9 6 4) ............................................... 4 2
N A A C P v. Cl ai b o r n e H a r d w a r e ,
4 5 8 U. S. 8 8 6 ( 1 9 8 2) ............................................... 1 2
N at’l O r g. f o r W o m e n v. O p e r ati o n R e s c u e ,
3 7 F. 3 d 6 4 6 ( D. C. Ci r. 1 9 9 4).................................. 2 6
N e w J e r s e y v. T. L. O. ,
4 6 9 U. S. 3 2 5 ( 1 9 8 5) ............................................... 1 6
O n c al e v. S u n d o w n e r Off s h o r e S e r v s., I n c. ,
5 2 3 U. S. 7 5 ( 1 9 9 8) ................................................. 2 6
P a c ki n g h a m v. N o rt h C a r oli n a ,
1 3 7 S. Ct. 1 7 3 0 ( 2 0 1 7) ........................................... 2 3
P a pi s h v. U ni v. of M o. B d. of C u r at o r s ,
4 1 0 U. S. 6 6 7 ( 1 9 7 3) ............................................... 1 5
P a r k e r v. L e v y ,
4 1 7 U. S. 7 3 3 ( 1 9 7 4) ............................................... 3 2
vi

Pi c k e ri n g v. B d. of E d u c. ,
3 9 1 U. S. 5 6 3 ( 1 9 6 8) ............................................... 3 1
R. A. V. v. Cit y of S ai nt P a ul ,
5 0 5 U. S. 3 7 7 ( 1 9 9 2) ............................................... 2 6
R e e d v. T o w n of Gil b e rt ,
5 7 6 U. S. 1 5 5 ( 2 0 1 5) ............................................... 1 1
R e n o v. A m e ri c a n Ci vil Li b e rti e s U ni o n ,
5 2 1 U. S. 8 4 4 ( 1 9 9 7) ................................... 1 2, 1 8, 2 3
R u st v. S ulli v a n ,
5 0 0 U. S. 1 7 3 ( 1 9 9 1) ............................................... 4 1
S a x e v. St at e C oll. A r e a S c h. Di st. ,
2 4 0 F. 3 d 2 0 0 ( 3 d Ci r. 2 0 0 1) ................................... 1 9
S c al e s v. U nit e d St at e s ,
3 6 7 U. S. 2 0 3 ( 1 9 6 1) ............................................... 4 2
S c ott v. S c h. B d. of Al a c h u a Ct y .,
3 2 4 F. 3 d 1 2 4 6 ( 1 1t h Ci r. 2 0 0 3) ............................. 2 0
S n y d e r v. P h el p s ,
5 6 2 U. S. 4 4 3 ( 2 0 1 1) ............................................... 1 7
T a yl o r v. R o s w ell I n d e p. S c h. Di st. ,
7 1 3 F. 3 d 2 5 ( 1 0t h Ci r. 2 0 1 3) ................................. 2 0
T e x a s v. J o h n s o n ,
4 9 1 U. S. 3 9 7 ( 1 9 8 9) ............................................... 1 1
T h o m a s v. B d. of E d u c. ,
6 0 7 F. 2 d 1 0 4 3 ( 2 d Ci r. 1 9 7 9) ................................. 1 5
Ti n k e r v. D e s M oi n e s I n d e p e n d e nt C o m m u nit y
S c h o ol Di st ri ct , 3 9 3 U. S. 5 0 3 ( 1 9 6 9) ..............p a s si m
U nit e d St at e s e x r el. T ot h v. Q u a rl e s ,
3 5 0 U. S. 1 1 ( 1 9 5 5) ................................................. 3 2
U nit e d St at e s v. Al v a r e z ,
5 6 7 U. S. 7 0 9 ( 2 0 1 2) ............................................... 2 5
vii

U nit e d St at e s v . B ell,
4 1 4 F. 3 d 4 7 4 ( 3 d Ci r. 2 0 0 5) ................................... 2 6
U nit e d St at e s v. O si n g e r ,
7 5 3 F. 3 d 9 3 9 ( 9t h Ci r. 2 0 1 4) ................................. 2 5
U nit e d St at e s v. St e v e n s ,
5 5 9 U. S. 4 6 0 ( 2 0 1 0) ......................................... 2 5, 3 1
U nit e d St at e s v. W hit e ,
4 0 1 U. S. 7 4 5 ( 1 9 7 1) ............................................... 3 4
V e r n o ni a S c h. Di st. 4 7 J v. A ct o n ,
5 1 5 U. S. 6 4 6 ( 1 9 9 5) ............................................... 1 6
Vi r gi n i a v. Bl a c k,
5 3 8 U . S. 3 4 3 ( 2 0 0 3) ............................................... 2 4
W. V a. St at e B d. of E d u c. v. B a r n ett e ,
3 1 9 U. S. 6 2 4 ( 1 9 4 3) ........................................... 3, 1 2
W a r d v. R o c k A g ai n st R a ci s m,
4 9 1 U. S. 7 8 1 ( 1 9 8 9) ............................................... 1 7
W e st v. D e r b y U nifi e d S c h. Di st . N o. 2 6 0 ,
2 0 6 F. 3 d 1 3 5 8 ( 1 0t h Ci r. 2 0 0 0) ............................. 2 0
W hit n e y v. C alif o r ni a ,
2 7 4 U. S. 3 5 7 ( 1 9 2 7) ............................................... 1 2
C O N S TI T U TI O N & S T A T U T E S
U. S. C o n st. a m e n d. I ..........................................p a s si m
2 4 P a. St at. a n d C o n s. St at. A n n. § 5 -5 1 0 ................ 1 4
L a. R e v. St at. § 1 7: 4 1 6 .............................................. 1 4
T e n n. C o d e A n n. § 4 9 -6 -4 1 0 2 ................................... 1 4
V a. C o d e A n n. § 2 2. 1 -7 8 ............................................ 1 4

viii

O T H E R A U T H O RI TI E S
A C L U U r g e s S h a k e r H ei g ht s Hi g h S c h o ol t o R e v e r s e
D e ci si o n t o P u ni s h St u d e nt s f o r F r e e S p e e c h, A C L U
( N o v. 1 4, 2 0 1 6), htt p s:// w w w. a cl u o hi o. o r g/ a r c hi v e s/
p r e s s -r el e a s e s/ a cl u -u r g e s -s h a k e r -h ei g ht s -hi g h s c h o ol -t o-r e v e r s e -d e ci si o n -t o-p u ni s h -st u d e nt s -f o rf r e e-s p e e c h ? c = 1 7 4 5 3 4. ........................................... 2 2
Ali s s a Wi d m a n, R a ci all y C h a r g e d Vi d e o L e a d s t o
Di s ci pli n e f o r 3 Pi c k e ri n gt o n C e nt r al St u d e nt s ,
T h e C ol u m b u s Di s p at c h ( A p r. 1 3, 2 0 1 6),
htt p s:// w w w. di s p at c h. c o m/ a rti cl e/ 2 0 1 6 0 4 1 2/ N E W S/
3 0 4 1 2 9 8 5 1 .............................................................. 2 2
A nti -a b o rti o n T -s hi rt s at C e nt e r of S c h o ol A r g u m e nt ,
Si o u x Cit y J o u r n al ( A p r. 3 0, 2 0 0 5),
htt p s:// si o u x cit yj o u r n al. c o m/ n e w s/ st at e -a n d r e gi o n al/ a nti -a b o rti o n -t-s hi rt s -at -c e nt e r -of -s c h o ol a r g u m e nt/ a rti cl e _ b 9 d 3 cf 1 a -f a 5 c-5 a 6 3 -9 2 7 d af 7 4 9 c a 7 b b 9 9. ht ml ................................................ 2 2
C. W. B a r d e e n, T h e N e w Y o r k S c h o ol Offi c e r s
H a n d b o o k: A M a n u al of C o m m o n S c h o ol L a w
( 9t h e d. 1 9 1 0) ......................................................... 2 9
C at h e ri n e J. R o s s, L e s s o n s i n C e n s o r s hi p ( 2 0 1 5) .... 2 2
Elli ot H a n n o n, G e o r gi a Hi g h S c h o ol St u d e nt s
S u s p e n d e d f o r S o ci al M e di a P o st s S h o wi n g P a c k e d
H all w a y s , S L A T E ( A u g. 7, 2 0 2 0),
htt p s:// sl at e. c o m/ n e w s -a n d -p oliti c s/ 2 0 2 0/ 0 8/ g e o r gi a n o rt h -p a ul di n g -hi g h -s c h o ol -st u d e nt s -s u s p e n d e d s o ci al -m e di a -p o st s -p a c k e d -h all w a y s. ht ml ............ 2 1
J uli et M a c u r, At Wi s c o n si n Hi g h S c h o ol, A c c u s ati o n s
of B o d y S h a mi n g at a C h e e rl e a di n g B a n q u et ,
N. Y. Ti m e s ( F e b. 1 9, 2 0 1 9) .................................... 4 0

ix

M o ni c a A n d e r s o n & Ji n gji n g Ji a n g, T e e n s,
S o ci al M e di a & T e c h n ol o g y 2 0 1 8 , P e w R e s.
( M a y 3 1, 2 0 1 8), htt p s:// w w w. p e w r e s e a r c h. o r g
/i nt e r n et/ 2 0 1 8/ 0 5/ 3 1/t e e n s-s o ci al -m e di a -t e c h n ol o g y 2 0 1 8/ ....................................................................... 3 4
R o b b y S o a v e, Hi g h S c h o ol S u s p e n d s 2 St u d e nt s f o r
P o sti n g G u n R a n g e P h ot o s o n S n a p c h at, A C L U
Fil e s S uit , R e a s o n ( A p r. 1 1, 2 0 1 9),
htt p s:// r e a s o n. c o m/ 2 0 1 9/ 0 4/ 1 1/ hi g h -s c h o ol -g u n s n a p c h at -s u s p e n si o n -a cl u/ .................................... 2 2

x

I N T R O D U C TI O N
T hi s c a s e i s a b o ut t h e f r e e s p e e c h ri g ht s of
y o u n g p e o pl e o ut si d e of s c h o ol — at c h u r c h, d u ri n g
w e e k e n d p r ot e st s, at h o m e, o r, a s i n t hi s c a s e, at a
l o c al c o n v e ni e n c e st o r e wit h a f ri e n d o n a S at u r d a y
aft e r n o o n. O ut si d e of t h e s c h o ol e n vi r o n m e nt, y o u n g
p e o pl e h a v e t h e ri g ht t o fi n d t h ei r v oi c e s wit h o ut b ei n g
u n d ul y c hill e d, t h ei r p a r e nt s h a v e t h e ri g ht t o m a n a g e
t h ei r u p b ri n gi n g, a n d ot h e r s h a v e t h e ri g ht t o h e a r
w h at t h e y h a v e t o s a y.
P etiti o n e r s e e k s t o c h a n g e t h at. It w o ul d t a k e
Ti n k e r v. D e s M oi n e s I n d e p e n d e nt C o m m u nit y S c h o ol
Di st ri ct , 3 9 3 U. S. 5 0 3 ( 1 9 6 9), w h e r e t hi s C o u rt h a s
n e v e r g o n e. I n it s vi e w, Ti n k e r ’ s r ul e, w hi c h p e r mit s
s c h o ol s t o p u ni s h s p e e c h if li st e n e r s mi g ht r e a ct
di s r u pti v el y, w o ul d b e c o m e n ot j u st s o m et hi n g y o u n g
p e o pl e m u st e n d u r e at s c h o ol, b ut a c o n st a nt f e at u r e
of t h ei r li v e s. It w o ul d s u bj e ct y o u n g p e o pl e t o
Ti n k e r ’s v a g u e “ di s r u pti o n” st a n d a r d 2 4 h o u r s a d a y,
3 6 5 d a y s a y e a r, d et e r ri n g t h e m f r o m s a yi n g a n yt hi n g
t h at s c h o ol a ut h o riti e s mi g ht d e e m c o nt r o v e r si al,
c riti c al, o r p oliti c all y i n c o r r e ct, a n d t h e r ef o r e
di s r u pti v e.
P etiti o n e r’ s o nl y li mit ati o n, t h at t h e
s p e e c h b e “ di r e ct e d” t o t h e s c h o ol a n d r e a s o n a bl y
li k el y t o r e a c h it, i s d efi n e d s o b r o a dl y t h at it w o ul d
e n c o m p a s s all s p e e c h t o a n ot h e r st u d e nt, n o m att e r it s
c o nt e nt, a n d all c o nt e nt t h at i s s c h o ol -r el at e d. F o r
yo u ng
p e o pl e — w h o s e
c o nt a ct s
ar e
p ri m a ril y
cl a s s m at e s a n d f o r w h o m s c h o ol aff ai r s a r e a f r e q u e nt
t o pi c— t h at i s n o li mit at all.
P etiti o n e r’ s c o nt e nti o n t h at it s p r o p o s e d r ul e
w o ul d r e a c h t h e s p e e c h at i s s u e h e r e ill u st r at e s t h e
r e m a r k a bl e s w e e p of it s a p p r o a c h. B. L. p o st e d a n
e x p r e s si o n of f r u st r a ti o n aft e r l e a r ni n g s h e di d n ot
1

m a k e h e r s c h o ol’ s v a r sit y c h e e rl e a di n g t e a m. T h e p o st
w a s n eit h e r t h r e at e ni n g n o r h a r a s si n g. S h e c r e at e d it
w hil e at a l o c al c o n v e ni e n c e st o r e o n a S at u r d a y
aft e r n o o n a n d p o st e d it t o S n a p c h at, a pl atf o r m f r o m
w hi c h p o st s i r r et ri e v a bl y di s a p p e a r aft e r 2 4 h o u r s.
S h e s h a r e d it o nl y wit h h e r S n a p c h at “f ri e n d s,” all of
w h o m h a d a g r e e d t o r e c ei v e h e r p o st s. T h e s c h o ol
a d mitt e d t h at h e r p o st di d n ot di s r u pt a n y s c h o ol
a cti vit y, b ut it n o n et h el e s s a s s e rt s t h at p u ni s hi n g B. L.
f o r h e r s p e e c h w a s c o n stit uti o n al.
Ti n k e r a n d t h e “ s c h o ol s p e e c h” c a s e s t h at
f oll o w e d c o n stit ut e a c a r ef ull y c a bi n e d e x c e pti o n t o
t h e Fi r st A m e n d m e nt’ s li mit s o n g o v e r n m e nt al
a ut h o rit y t o e n g a g e i n c o nt e nt - a n d vi e w p oi nt -b a s e d
c e n s o r s hi p. T h e y a ut h o r i z e t h e s c h o ol t o r e g ul at e
st u d e nt s’ s p e e c h wit hi n t h e “ s c h o ol e n vi r o n m e nt” — o n
s c h o ol g r o u n d s, t r a v eli n g t o a n d f r o m s c h o ol, at s c h o ol s p o n s o r e d o r -s u p e r vi s e d a cti viti e s — i n w a y s t h at t h e
g o v e r n m e nt c a n n ot ot h e r wi s e r e g ul at e e x p r e s si o n. I n
t h e s e c o nt e xt s, s c h o ol s a r e r e s p o n si bl e f o r t h ei r
st u d e nt s’ c a r e, a n d ot h e r st u d e nt s a r e oft e n a c a pti v e
a u di e n c e. Wit hi n t h e s c h o ol e n vi r o n m e nt, t h e r ef o r e,
s c h o ol s c a n a n d d o p u ni s h s p e e c h b e c a u s e ot h e r s fi n d
t h e m e s s a g e off e n si v e a n d di s a g r e e a bl e if it i s li k el y
t h at t h e h e c kl e r s will c r e at e “ s u b st a nti al di s r u pti o n.”
B ut t hi s r e st ri cti o n o n s p e e c h i s a c c e pt a bl e o nl y
b e c a u s e, o ut si d e t h at e n vi r o n m e nt, y o u n g p e o pl e a r e
f r e e f r o m s u c h c e n s o r s hi p.
P etiti o n e r a n d t h e U nit e d St at e s e r e ct a st r a w
m a n b y cl ai mi n g t h at t h e d e ci si o n b el o w r e q ui r e s
s c h o ol s t o “i g n o r e” s p e e c h t h at o c c u r s o ut si d e s c h o ol
a n d d e p ri v e s s c h o ol s of a n y “ a ut h o rit y” o v e r off c a m p u s s p e e c h. P et. B r. 3; U. S. B r. 7. T h at i s d o u bl y
f al s e. Fi r st, t h e c o u rt b el o w e x p r e s sl y “ r e s e r v[ e d] f o r
a n ot h e r d a y . . . s p e e c h t h at t h r e at e n s vi ol e n c e o r
2

h a r a s s e s ot h e r s” o ut si d e of s c h o ol, a n d h el d o nl y t h at
Ti n k e r d o e s n ot g o v e r n “ off -c a m p u s s p e e c h n ot
i m pli c ati n g t h at cl a s s of i nt e r e st s.” P et. A p p. 2 5 a, 3 5 a.
A n d s e c o n d, e v e n a s t o n o n h a r a s si n g a n d n o n vi ol e nt
s p e e c h, t h e c o u rt di d n ot “[f] o r bi d[] s c h o ol s f r o m
a d d r e s si n g off -c a m p u s s p e e c h .” P et. B r. 1 2. It si m pl y
h el d t h at w h e n r e g ul ati n g s u c h s p e e c h, s c h o ol s m u st
s ati sf y t r a diti o n al Fi r st A m e n d m e nt st a n d a r d s .
P et. A p p. 3 4 a – 3 5 a.
T h o s e t r a diti o n al Fi r st A m e n d m e nt st a n d a r d s
p e r mit s c h o ol s t o r e g ul at e t h r e at s, h a r a s s m e nt,
b ull yi n g, c h e ati n g, a n d ot h e r p r o hi bit e d c o n d u ct w h e n
t h e y t a k e pl a c e off -c a m p u s b ut h a v e a n eff e ct o n t h e
s c h o ol. E xt e n di n g t h e bl u nt i n st r u m e nt of Ti n k e r i s
t h u s u n n e c e s s a r y t o a d d r e s s t h e s e p r o bl e m s. T h e f a ct
t h at s c h o ol s “ a r e e d u c ati n g t h e y o u n g f o r citi z e n s hi p
i s r e a s o n f o r sc r u p ul o u s p r ot e cti o n of C o n stit uti o n al
f r e e d o m s of t h e i n di vi d u al, if w e a r e n ot t o st r a n gl e
t h e f r e e mi n d at it s s o u r c e a n d t e a c h y o ut h t o di s c o u nt
i m p o rt a nt p ri nci pl e s of o u r g o v e r n m e nt a s m e r e
pl atit u d e s.” W. V a . St at e B d. of E d u c. v. B a r n ett e , 3 1 9
U. S. 6 2 4, 6 3 7 ( 1 9 4 3).
S T A T E M E N T
A.

F a c t u al B a c k g r o u n d

O n S at u r d a y, M a y 2 7, 2 0 1 7, R e s p o n d e nt B. L.
w e nt t o a l o c al c o n v e ni e n c e st o r e wit h a f ri e n d. A 1 4 y e a r -ol d f r e s h m a n at M a h a n o y J r./ S r. Hi g h S c h o ol,
B. L. h a d r e c e ntl y l e a r n e d t h at s h e h a d n ot m a d e t h e
s c h o ol’ s v a r sit y c h e e rl e a di n g t e a m a n d w o ul d r e m ai n
o n t h e j u ni o r v a r sit y t e a m. S h e h a d al s o f ail e d t o g et
t h e p o siti o n s h e w a nt e d o n h e r l o c al s of t b all t e a m, a n d
w a s a n xi o u s a b o ut h e r u p c o mi n g fi n al e x a m s. J. A. 2 4 –
2 5. F r u st r at e d a n d u p s et, s h e t y p e d t h e w o r d s at t h e
3

c e nt e r of t hi s di s p ut e — “ F u c k s c h o ol f u c k s oft b all f u c k
c h e e r f u c k e v e r yt hi n g” — o n h e r p e r s o n al c ell p h o n e.
P et. A p p. 5 a ; J. A. 2 0, 4 6 n. 8 . S h e t h e n p o st e d t h e
w o r d s, wit h a p h ot o of h e r s elf a n d h e r f ri e n d
e xt e n di n g t h ei r mi d dl e fi n g e r s, t o S n a p c h at, a s o ci al
m e di a pl atf o r m f r o m w hi c h s u c h p o st s, c oll o q ui all y
k n o w n a s “ S n a p s,” di s a p p e a r i r r et ri e v a bl y aft e r 2 4
h o u r s. P et. A p p . 5 a & n. 1, 5 1 a. 1
B. L. s h a r e d t h e S n a p o nl y wit h a s el e ct g r o u p
of “f ri e n d s” w h o v ol u nt a ril y a g r e e d t o r e c ei v e t h e m.
S h e u s e d S n a p c h at f o r s p o nt a n e o u s c o m m u ni c ati o n
wit h h e r f ri e n d s, i n t h e s a m e w a y s h e w o ul d t al k t o
t h e m if t h e y w e r e t o g et h e r i n p e r s o n o ut si d e of s c h o ol.
J. A. 2 3. S h e k n e w t h e S n a p w o ul d di s a p p e a r f r o m t h e
pl atf o r m o n S u n d a y, l o n g b ef o r e s c h o ol r e s u m e d. J. A.
2 7.
T h at s h o ul d h a v e b e e n t h e e n d of t h e m att e r.
B ut u n b e k n o w n st t o B. L., a n ot h e r c h e e rl e a d e r, n ot
a m o n g t h o s e w h o h a d si g n e d u p t o r e c ei v e B. L.’ s
S n a p s, l e a r n e d of t h e S n a p a n d s h a r e d a s c r e e n s h ot of
it wit h h e r m ot h e r, o n e of t w o c h e e rl e a di n g c o a c h e s at
t h e s c h o ol. J. A. 1 1 3. 2
T h e c h e e rl e a di n g c o a c h e s s u s p e n d e d B. L. f r o m
t h e t e a m f o r h e r e nti r e s o p h o m o r e y e a r. P et . A p p. 2 a.
B. L. p o st e d a s e c o n d S n a p s h o rtl y aft e r t h e S n a p at i s s u e —
“ L o v e h o w m e a n d [ a n ot h e r st u d e nt] g et t ol d w e n e e d a y e a r of j v
b ef o r e w e m a k e v a r sit y b ut t h at’ s [ si c] d o e s n’t m att e r t o a n y o n e
el s e ? 🙃 ”— b ut t h e s c h o ol di s cl ai m e d a n y r eli a n c e o n it f o r h e r
p u ni s h m e nt. P e t. A p p. 5 a; J. A. 5 4 – 6 1, 8 7 – 8 8.
1

R e s p o n d e nt’ s B ri ef i n O p p o siti o n t o t h e P etiti o n f o r C e rti o r a ri
mi st a k e n l y st at e d t h at t h e c o a c h’ s d a u g h t e r w a s o n e of B. L.’ s
S n a p c h at “f ri e n d s.” B r. O p p. at 2 – 3.
I n f a ct, t h e r e c o r d
d e m o n st r at e s t h at s h e di d n ot r e c ei v e B. L.’ s S n a p s a n d l e a r n e d
of t h e S n a p f r o m a n ot h e r st u d e nt.
2

4

T h e c o a c h e s cl ai m e d t h at B. L.’ s u s e of p r of a nit y i n t h e
S n a p i n c o n n e cti o n wit h t h e w o r d “ c h e e r” vi ol at e d t w o
“ c h e e rl e a di n g r ul e s.” J. A. 3 5, 5 4 – 5 5.
T h e fi r st
r e q ui r e s t h at st u d e nt s “h a v e r e s p e ct f o r y o u r s c h o ol,
c o a c h e s, t e a c h e r s, ot h e r c h e e rl e a d e r s a n d t e a m s . . .
w h e n at g a m e s, f u n d r ai s e r s, a n d ot h e r e v e nt s ” a n d
p r o hi bit s “ u n s p o rt s m a nli k e c o n d u ct,” i n cl u di n g “f o ul
l a n g u a g e a n d i n a p p r o p ri at e g e st u r es. ” P et. A p p. 5 1 a ;
J. A. 1 7. T h e s e c o n d st at e s t h at “[t] h e r e wil l b e n o
t ol e r ati o n of a n y n e g ati v e i nf o r m ati o n r e g a r di n g
c h e e rl e a di n g, c h e e rl e a d e r s, o r c o a c h e s pl a c e d o n t h e
i nt e r n et.” P et. A p p. 5 1 a; J. A. 1 8.
T h e S c h o ol Di st ri ct a s s e rt e d t h at B. L. al s o
vi ol at e d t h e s c h o ol’ s “ P e r s o n al C o n d u ct R ul e,” w hi c h
p r o vi d e s t h at “ d u ri n g t h e s p o rt s s e a s o n,” m e m b e r s of
c h e e rl e a di n g a n d s p o rt s t e a m s m u st “ c o n d u ct[]
t h e m s el v e s i n s u c h a w a y t h at t h e i m a g e of t h e
M a h a n o y S c h o ol Di st ri ct w o ul d n ot b e t a r ni s h e d i n
a n y m a n n e r.” J. A. 5 6.
T h e c h e e rl e a di n g c o a c h e s a d mitt e d t h at t h e
S n a p c a u s e d n o di s r u pti o n b e y o n d b ri ef q u e sti o n s b y
ot h e r st u d e nt s w h o w e r e “ u p s et” a n d w a nt e d t o k n o w
w h at w o ul d h a p p e n t o B. L.
J. A. 8 2 – 8 4, 9 0. T h e
c o a c h e s al s o t e stifi e d t h at “ el e ct r o ni c s q u a b bli n g
a m o n g st c h e e rl e a d e r s . . . ‘i s a f ai rl y t y pi c al
o c c u r r e n c e .’” P et. A p p. 5 2 a. C o a c h Ni c ol e L u c h ett a R u m p t e stifi e d t h at “ s h e p u ni s h e d B. L. f o r p r of a n el y
r ef e r e n ci n g c h e e rl e a di n g, n ot b e c a u s e of a n y
p o s si bilit y of di s r u pti o n.” P et. A p p. 7 4 a.
B. L.’ s p a r e nt s a s k e d t h e p ri n ci p al a n d t h e
s c h o ol b o a r d t o r e c o n si d e r, b ut t h e y b ot h d e cli n e d.
P et. A p p. 5 2 a; J. A. 5 9 – 6 1 .

5

B.

P r o c e d u r al Hi s t o r y

B. L. a n d h e r p a r e nt s fil e d s uit a g ai n st t h e
M a h a n o y A r e a S c h o ol Di st ri ct (“ S c h o ol Di st ri ct” o r
“ P etiti o n e r”) o n S e pt e m b e r 2 5, 2 0 1 7 . T h e di st ri ct c o u rt
i s s u e d a t e m p o r a r y r e st r ai ni n g o r d e r t h e n e xt d a y
r e st o ri n g B. L. t o t h e t e a m.
Aft e r a n e vi d e nti a r y h e a ri n g, t h e di st ri ct c o u rt
g r a nt e d a p r eli mi n a r y i nj u n cti o n. T h e S c h o ol Di st ri ct
“ m a d e n o a r g u m e nt t h at t h e S n a p . . . w o ul d
s u b st a nti all y di s r u pt t h e o p e r at i o n of t h e s c h o ol” a n d
i n st e a d “ s ol el y r eli e[ d] u p o n [ B. L.’ s] u s e of p r of a nit y,”
i n v o ki n g B et h el S c h o ol Di st ri ct N o. 4 0 3 v. F r a s e r , 4 7 8
U. S. 6 7 5 ( 1 9 8 6) . J. A. 4 5 n. 7. T h e di st ri ct c o u rt
c o n cl u d e d t h at B. L. w a s li k el y t o s u c c e e d o n t h e m e rit s
b e c a u s e “ F r a s e r ’ s p r of a nit y e x c e pti o n . . . d o e s n ot
a p pl y t o off -c a m p u s s p e e c h a n d Pl ai ntiff B. L.’ s s p e e c h
c a n n ot b e c o n si d e r e d o n -c a m p u s s p e e c h.” J. A. 5 0.
At t h e s u m m a r y j u d g m e nt st a g e, t h e S c h o ol
Di st ri ct a g ai n a r g u e d t h at B. L.’ s p u ni s h m e nt “i s
s u p p o rt e d b y t h e p r of a nit y e x c e pti o n t o Ti n k e r f o u n d
i n [F r a s e r ].” R e pl y B r. S u p p. D ef.’ s M ot. f o r S u m m. J .
at 1 , E C F N o. 5 5, 3: 1 7-c v -1 7 3 4 ( M. D. P a. F e b. 2 2,
2 0 1 9 ). T h e di st ri ct c o u rt g r a nt e d B. L. s u m m a r y
j u d g m e nt. P et. A p p. 6 8 a. It h el d t h at F r a s e r di d n ot
a p pl y off -c a m p u s, a n d n ot e d t h at t h e o nl y e vi d e n c e of
“ di s r u pti o n” c o n si st e d of st u d e nt c o n c e r n s o v e r B. L.’ s
S n a p s a n d a n a d mitt e dl y b ri ef di s r u pti o n of C o a c h
L u c h ett a -R u m p’ s m at h cl a s s,” a n d h el d t h at “[ s] u c h
g e n e r al r u m bli n g s d o n ot a m o u nt t o s u b st a nti al
di s r u pti o n” u n d e r Ti n k e r . P et. A p p. 7 3 a ( i nt e r n al
q u ot ati o n s o mitt e d) . T h e c o u rt o r d e r e d t h e S c h o ol
D i st ri ct t o e x p u n g e a n y r e c o r d of it s di s ci pli n a r y
a cti o n a n d a w a r d e d B. L. n o mi n al d a m a g e s.

6

T h e T hi r d Ci r c uit u n a ni m o u sl y affi r m e d. A s i n
t h e di st ri ct c o u rt, t h e S c h o ol Di st ri ct “ p ri n ci p all y
d ef e n d[ e d] it s a cti o n s b a s e d o n it s p o w e r ‘t o e nf o r c e
s o ci all y a c c e pt a bl e b e h a vi o r’ b y b a n ni n g ‘ v u l g a r’”
w o r d s. P et. A p p. 1 6 a. T h e p a n el r ej e ct e d t h at
a r g u m e nt, a g r e ei n g wit h t h e di st ri ct c o u rt t h at F r a s e r
c o ul d n ot b e e xt e n d e d t o off -c a m p u s s p e e c h. P et. A p p.
1 6 a – 2 1 a.
It al s o r ej e ct e d t h e S c h o ol Di st ri ct’ s a r g u m e n t
t h at B. L.’ s s u s p e n si o n f r o m t h e c h e e rl e a di n g t e a m
w a s j u stifi e d u n d e r Ti n k e r . T h e p a n el m aj o rit y
e x pl ai n e d t h at Ti n k e r ’ s di s r u pti o n st a n d a r d a p pli e s i n
“t h e s c h o ol c o nt e xt,” w hil e B. L.’ s s p e e c h o c c u r r e d off c a m p u s, o ut si d e s c h o ol h o u r s, n ot in a s c h o ol s p o n s o r e d f o r u m o r at a s c h o ol -s p o n s o r e d e v e nt, a n d
wit h o ut a n y s c h o ol i m p ri m at u r. P et. A p p. 1 5 a, 3 4 a –
3 5 a.
T h e p a n el m aj o rit y e x p r e s sl y “ r e s e r v e[ d] f o r
a n ot h e r d a y t h e Fi r st A m e n d m e nt i m pli c ati o n s of off c a m p u s st u d e nt s p e e c h t h at t h r e at e n s vi ol e n c e o r
h a r a s s e s ot h e r s.” P et. A p p. 2 5 a, 3 4 a – 3 5 a. It st r e s s e d
t h at it s “ o pi ni o n t a k e s n o p o siti o n o n s c h o ol s’ b ott o m li n e p o w e r t o di s ci pli n e s p e e c h i n t h at c at e g o r y.” I d.
3 5 a. It h el d o nl y t h at Ti n k e r d o e s n ot e xt e n d t o “ off c a m p u s s p e e c h n ot i m pli c atin g t h at cl a s s of i nt e r e st s.”
I d . T o r e g ul at e s u c h s p e e c h, t h e s c h o ol “ m u st a n s w e r
t o t h e s a m e c o n stit uti o n al c o m m a n d s t h at bi n d all
ot h e r i n stit uti o n s of g o v e r n m e nt.”
P et. A p p. 4 a
(i nt e r n al q u ot ati o n s o mitt e d).
J u d g e A m br o c o nc urr e d i n t h e
c o n cl u d e d t h at it w a s u n n e c e s s a r y t o
Ti n k e r a p pli e d b e y o n d t h e s c h o ol
a s s u mi n g t h at it di d, B. L.’ s S n a p “i s

7

j u d g m e nt. H e
d e ci d e w h et h e r
b ec a us e e v e n
n ot cl o s e t o t h e

li n e of st u d e nt s p e e c h t h at s c h o ol s
P et. A p p. 4 5 a.

m a y r e g ul at e.”

S U M M A R Y O F A R G U M E N T
O ut si d e of s c h o ol, g o v e r n m e nt m a y n ot p e n ali z e
s p e e c h b e c a u s e li st e n e r s fi n d it off e n si v e o r
di s a g r e e a bl e. T h at p ri n ci pl e, a n d t h e r el at e d
p r o hi biti o n s o n c o nt e nt a n d vi e w p oi nt di s c ri mi n ati o n,
a p pl y e q u all y w h e r e y o u n g p e o pl e a r e i n v ol v e d. I n si d e
s c h o ol, h o w e v e r, u n d e r t hi s C o u rt’ s d e ci si o n i n Ti n k e r
v. D e s
M oi n e s I n d e p e n d e nt C o m m u nit y S c h o ol
Di st ri ct , 3 9 3 U. S. 5 0 3 ( 1 9 6 9) , a ut h o riti e s m a y p u ni s h
a n y st u d e nt s p e e c h t h at l e a d s t o, o r mi g ht l e a d t o,
“ s u b st a nti al di s r u pti o n” — e v e n if t h e di s r u pti o n i s
c a u s e d b y ot h e r s w h o fi n d t h e i d e a e x p r e s s e d off e n si v e
o r di s a g r e e a bl e. Ti n k e r i s t h u s a st a r k e x c e pti o n t o
t h e Fi r st A m e n d m e nt’ s m o st f u n d a m e nt al r ul e, a n d
o n e t h at t h e C o u rt c a r ef ull y c o nfi n e d t o t h e “ s c h o ol
e n vi r o n m e nt” — i n s c ho ol, at s c h o ol -s p o n s o r e d o r
-s u p e r vi s e d e v e nt s, a n d w h e n st u d e nt s a r e t r a v eli n g
b et w e e n s c h o ol a n d h o m e. P etiti o n e r h e r e s e e k s t o
eli mi n at e t h at li mit ati o n a n d t o s u bj e ct y o u n g p e o pl e’ s
s p e e c h e v e r y w h e r e t o t h e r e d u c e d p r ot e cti o n it r e c ei v e s
wit hi n t h e s c h o ol e n vi r o n m e nt. T h e C o u rt s h o ul d n ot
do so .
I.
Ti n k e r , li k e all of t hi s C o u rt’ s “ s c h o ol
s p e e c h” c a s e s, i n v ol v e s t h e r e g ul ati o n of s p e e c h “i n
s c h o ol.” It i s j u stifi e d b y t h e “ s p e ci al c h a r a ct e ri sti c s of
t h e s c h o ol e n vi r o n m e nt” a n d i s l i mit e d t o t h at s etti n g.
T h e c a s e s t h at f oll o w e d d r e w t h e s a m e li n e. T h u s, i n
s c h o ol, a ut h o riti e s m a y r e g ul at e s p e e c h b e c a u s e it i s
l e w d, e x p r e s s e s a p r o-d r u g vi e w p oi nt, i s d e e m e d
i n a p p r o p ri at e f o r t h e s c h o ol n e w s p a p e r, o r di s r u pti v e.
B ut o ut si d e s c h o ol, st u d e nt s m a y n ot b e p u ni s h e d f o r
l e w d s p e e c h, s p e a ki n g p o siti v el y a b o ut d r u g s,
8

p u bli s hi n g a n i n a p p r o p ri at e a rti cl e , o r s a yi n g
s o m et hi n g t h at li st e n e r s o bj e ct t o i n a “ di s r u pti v e”
m a n n e r.
T h e li n e t h e C o u rt h a s d r a w n m a k e s d o ct ri n al
s e n s e. It i s p e r mi s si b l e t o s u bj e ct st u d e nt s t o r e d u c e d
p r ot e cti o n s i n s c h o ol b e c a u s e t h e y h a v e alt e r n ati v e
c h a n n el s t o s p e a k f r e el y o ut si d e s c h o ol . T h e Ti n k e r
st a n d a r d i s s o o p e n-e n d e d t h at it w o ul d b e
u n c o n s tit uti o n al if a p pli e d o ut si d e t h e s c h o ol
e n vi r o n m e nt. Li miti n g it s a p pli c ati o n t o s c h o ol al s o
a v oi d s i nt e rf e r e n c e wit h p a r e nt s’ a ut h o rit y o v e r t h ei r
c hil d r e n w h e n t h e y a r e n ot u n d e r s c h o ol s u p e r vi si o n.
A n d it r efl e ct s t h e f a ct t h at st u d e nt s a r e a “ c a pti v e
a u di e n c e” at s c h o ol, b ut n ot el s e w h e r e.
U n m o o ri n g Ti n k e r w o ul d h a v e f a r -r e a c hi n g
r e p e r c u s si o n s. Ti n k e r
h a s j u stifi e d
p u ni s hi n g
st u d e nt s f o r w e a ri n g cl ot hi n g at s c h o ol t h at f e at u r e d
t h e C o nf e d e r at e fl a g, st at e d t h at “ h o m o s e x u alit y i s
s h a m ef ul ,” a n d cl a i m e d t h at t h e U nit e d St at e s fl a g
“fl e w o v e r l e g ali z e d sl a v e r y f o r 9 0 y e a r s .” S c h ool s h a v e
p u ni s h e d st u d e nt s f o r off -c a m p u s s p e e c h t h at i n cl u d e s
p o sti n g pi ct u r e s of t h e m s el v e s at a g u n r a n g e a n d
o bj e cti n g t o ot h e r st u d e nt s’ u s e of r a ci st l a n g u a g e.
Ti n k e r p e r mit s c e n s o r s hi p wit hi n t h e s c h o ol if t h e
s c h o ol c a n s h o w s uffi ci e nt a ct u al o r p ot e nti al
di s r u pti o n. B ut e xt e n di n g s u c h c e n s o ri al a ut h o rit y
e v e r y w h e r e y o u n g p e o pl e g o w o ul d t e a c h t h e m e x a ctl y
t h e w r o n g l e s s o n.
E x p a n di n g Ti n k e r i s n ot n e c e s s a r y f o r s c h o ol s
t o a d d r e s s off-c a m p u s t h r e at s, h a r a s s m e nt, b ull yi n g,
a n d ot h e r s p e e c h i nt e g r al t o p r o s c ri b e d c o n d u ct.
T h r e at s a n d s p e e c h i nt e g r al t o p r o s c ri b e d c o n d u ct a r e
n ot p r ot e ct e d.
M o r e o v e r, t h e s e Fi r st A m e n d m e nt
c at e g o ri e s m a y t a k e a c c o u nt of t h e diff e r e n c e s t h at a g e
9

o r c o nt e xt m a k e.
T h at a p p r o a c h i s b ot h m o r e
n a r r o wl y t ail o r e d, a n d m o r e f ait hf ul t o p r e c e d e nt,
t h an e vi s c e r ati n g t h e li n e t h at Ti n k e r d r e w.
I I.
P etiti o n e r’ s p r o p o s al t o e x p a n d Ti n k e r i s
n ot s u p p o rt e d b y a n y of t h e f a r -fl u n g d o ct ri n e s it
i n v o k e s. It s p r o p o s e d li mit ati o n t o s p e e c h “ di r e ct e d”
at a n d li k el y t o r e a c h t h e s c h o ol i s n o li mit at all, a s it
e n c o m p a s s e s a n yt hi n g s ai d t o a cl a s s m at e, r e g a r dl e s s
of t o pi c, a n d a n yt hi n g s ai d a b o ut t h e s c h o ol,
r e g a r dl e s s of a u di e n c e. P etiti o n e r’ s a s s u r a n c e t h at it s
a p p r o a c h w o ul d n ot p e r mit vi e w p oi nt di s c ri mi n ati o n
i s c o nt r a r y t o it s o w n a cti o n s h e r e, w h e r e it a c c u s e s
B. L. of vi ol ati n g t h r e e e x p r e s sl y vi e w p oi nt -b a s e d
r ul e s.
A n d a s t h e m a n y C o nf e d e r at e fl a g c a s e s
ill u st r at e, Ti n k e r it s elf p e r mit s s p e e c h t o b e
s u p p r e s s e d b e c a u s e of it s vi e w p oi nt if ot h e r s mi g ht
o bj e ct t o it i n a di s r u pti v e w a y. P etiti o n e r’ s s u g g e s ti o n
t h at d r a wi n g a li n e b et w e e n i n si d e a n d o ut si d e s c h o ol
i s u n m a n a g e a bl e a n d a r bit r a r y i s b eli e d b y t h e f a ct
t h at t hi s C o u rt d r e w p r e ci s el y t h at li n e i n e a c h of it s
s c h o ol -s p e e c h c a s e s.
I I I.
T h e U nit e d St at e s a g r e e s wit h B. L. t h at
t h e v a st m aj o rit y of st u d e nt s p e e c h o ut si d e s c h o ol
s h o ul d n ot b e s u bj e ct t o Ti n k e r a n d p r o p e rl y r ej e ct s
P etiti o n e r’ s t e st a s f a r t o o s w e e pi n g. Li k e B. L., it
m ai nt ai n s t h at s c h o ol s s h o ul d h a v e a ut h o rit y t o
r e g ul at e t h r e at s, h a r a s s m e nt, a n d b ull yi n g. B ut t h e
U nit e d St at e s r e a c h e s t h at r e s ult i n a n a d h o c m a n n e r
n ot g r o u n d e d i n e xi sti n g s p e e c h d o ct ri n e, a n d
p r o p o s e s o p e n -e n d e d r ul e s t h at w o ul d ulti m at el y
g r a nt s c h o ol s n e a rl y a s m u c h u n b o u n d e d c e n s o ri al
a ut h o rit y a s t h e a p p r o a c h it r ej e ct s.

10

I V.
If t h e C o u rt d e ci d e s t o e xt e n d Ti n k e r, it
s h o ul d li mit it s a p pli c ati o n t o sit u ati o n s w h e r e
st u d e nt s i nt e n d t o c a u s e s u b st a nti al di s r u pti o n .
V.
Fi n all y, a s t w o j u d g e s b el o w f o u n d, e v e n
if Ti n k e r w e r e a p pli e d f ull f o r c e t o B. L.’ s s p e e c h, s h e
s h o ul d p r e v ai l b e c a u s e h e r S n a p c a u s e d n ot hi n g cl o s e
t o “ s u b st a nti al di s r u pti o n.”
I.

A P P L YI N G TI N K E R O U T SI D E O F S C H O O L
W O U L D S E RI O U S L Y U N D E R MI N E T H E
S P E E C H R I G H T S O F Y O U N G P E O P L E.

P etiti o n e r d o e s n ot di s p ut e t h at, u n d e r
t r a diti o n al Fi r st A m e n d m e nt p r i n ci pl e s, B. L. c o ul d n ot
b e p u ni s h e d f o r utt e ri n g a f o u r -l ett e r w o r d. I n
P etiti o n e r’ s vi e w,
h o w e v e r,
t h at c o n stit uti o n al
p r ot e cti o n di s a p p e a r s if t h e utt e r a n c e mi g ht b e
“di s r u pti v e ” u n d e r Ti n k e r . B ut Ti n k e r i s a n a r r o w
e x c e pti o n t o b e d r o c k Fi r st A m e n d m e nt p ri n ci pl e s t h at
a p pli e s o nl y wit hi n t h e s c h o ol e n vi r o n m e nt — o n s c h o ol
g r o u n d s, at s c h o ol -s p o n s o r e d o r -s u p e r vi s e d e v e nt s, o r
o n t h e w a y t o a n d f r o m s c h o ol.
A.

O
Y
A
C

u t si d e t h e S c h o ol E n vi r o n m e n t,
oung
P e o pl e
Have
a
Fi r s t
m e n d m e n t Ri g h t t o B e F r e e f r o m
o n t e n t -B a s e d C e n s o r s hi p .

At t h e h e a rt of t h e Fi r st A m e n d m e nt i s t h e
p ri n ci pl e t h at c o nt e nt -b a s e d r e st ri cti o n s o n s p e e c h a r e
p r e s u m pti v el y u n c o n stit uti o n al. R e e d v. T o w n of
Gil b e rt , 5 7 6 U. S. 15 5, 1 6 3 ( 2 0 1 5) . T h e Fi r st
A m e n d m e nt’ s “ b e d r o c k p ri n ci pl e” p r o vi d e s t h at
“ g o v e r n m e nt m a y n ot p r o hi bit t h e e x p r e s si o n of a n
i d e a si m pl y be c a u s e s o ci et y fi n d s t h e i d e a it s elf
off e n si v e o r di s a g r e e a bl e.” T e x a s v. J o h n s o n , 4 9 1 U.S.
3 9 7, 4 1 4 ( 1 9 8 9). F o r t h e s e r e a s o n s, t h e “ h e c kl e r’ s
11

v et o,” w hi c h s e e k s t o s u p p r e s s s p e e c h b e c a u s e ot h e r s
r e a ct n e g ati v el y t o it, i s a n at h e m a t o o u r
c o n stit uti o n al o r d e r. F o r s yt h Ct y. v. N ati o n ali st
M o v e m e nt , 5 0 5 U. S. 1 2 3, 1 3 4– 3 5 ( 1 9 9 2) .
T h e s e s af e g u a r d s a r e “ d e si g n e d a n d i nt e n d e d t o
. . . p ut[ ] t h e d e ci si o n a s t o w h at vi e w s s h all b e v oi c e d
l a r g el y i nt o t h e h a n d s of e a c h of u s,” r at h e r t h a n t h e
g o v e r n m e nt.
C o h e n v. C alif o r ni a , 4 0 3 U. S. 1 5, 2 4
( 1 9 7 1). I n o u r s y st e m, r e d r e s s f o r b a d i d e a s c o m e s
t h r o u g h “ di s c u s si o n [ of] t h e f al s e h o o d a n d f all a ci e s”
a n d “t h e p r o c e s s e s of e d u c ati o n” — “ n ot e nf o r c e d
sil e n c e.” J o h n s o n , 4 9 1 U. S. at 4 1 9 ( q u oti n g W hit n e y
v. C alif o r ni a , 2 7 4 U. S. 3 5 7, 3 7 7 ( 1 9 2 7) ( B r a n d ei s, J.,
c o n c u r ri n g)).
G o v e r n m e nt m u st t h e r ef o r e t ol e r at e w o r d s a n d
i d e a s t h at m a y b e off e n si v e t o m a n y— w h et h e r t h e
s p e e c h off e n d s b e c a u s e it c riti ci z e s p u bli c offi ci al s,
e s p o u s e s a di s s e nti n g vi e w, o r u s e s a f o u r -l ett e r w o r d.
“[ O] n e of t h e p r e r o g ati v e s of A m e ri c a n citi z e n s hi p i s
t h e ri g ht t o c riti ci z e p u bli c m e n a n d m e a s u r e s,”
C o h e n , 4 0 3 U. S. at 2 6, in cl u di n g wit h w o r d s t h at a r e
“ s p o nt a n e o u s a n d e m oti o n al ,” N A A C P v. Cl ai b o r n e
H a r d w a r e , 4 5 8 U. S. 8 8 6, 9 2 8 ( 1 9 8 2).
T h e s e p ri n ci pl e s a p pl y t o “ c o nt e nt -b a s e d
r e g ul ati o n [s ] . . . [ of] s p e e c h di r e ct e d at chil d r e n,”
“[ e] v e n w h e r e t h e p r ot e cti o n of c hil d r e n i s t h e o bj e ct.”
B r o w n v. E nt m’t M e r c h a nt s A s s’ n , 5 6 4 U. S. 7 8 6, 8 0 4 –
0 5 ( 2 0 1 1) (i n v ali d ati n g r e g ul ati o n of vi ol e nt vi d e o
g a m e s f o r mi n o r s); E r z n o z ni k v. Cit y of J a c k s o n vi ll e,
4 2 2 U. S. 2 0 5, 2 1 2 – 1 3 ( 1 9 7 5) (i n v ali d ati n g d ri v e-i n
m o vi e s r e st ri cti o n d e si g n e d t o p r ot e ct c hil d r e n); R e n o
v. A m e ri c a n Ci vil Li b e rti e s U n i o n, 5 2 1 U. S. 8 4 4, 8 7 4
( 1 9 9 7) (i n v ali d ati n g st at ut e p r o hi biti n g i n d e c e nt
c o m m u ni c ati o n s a v ail a bl e t o mi n o r s o nli n e) .
12

T h e f a ct t h at a s p e a k e r i s y o u n g “i s r e a s o n f o r
s c r u p ul o u s p r ot e cti o n of C o n stit uti o n al f r e e d o m s of
t h e i n di vi d u al.” W. V a. St at e B d. of E d u c. v. B a r n ett e ,
3 1 9 U. S. 6 2 4, 6 3 7 ( 1 9 4 3). T hi s i s t r u e w h et h e r t h e
i s s u e i s t h e f r e e d o m t o j oi n a p oliti c al m a r c h, t o c h o o s e
w hi c h r eli gi o u s s e r vi c e s t o att e n d, o r t o pl a y vi ol e nt
vi d e o g a m e s. B r o w n , 5 6 4 U. S. at 7 9 5 n. 3.
B.

Ti n k e r I s a N a r r o w E x c e p ti o n t o t h e
Fi r s t A m e n d m e n t’ s P r o hi bi ti o n o n
C o nt e nt
Di s c ri mi n a ti o n
a n d Is
Li mi t e d t o t h e S c h o ol E n vi r o n m e n t.

Ti n k e r e st a bli s h e d a n a r r o w e x c e pti o n t o t h e
Fi r st
A m e n d m e nt’ s
p r o hi biti o n s
on
c o nt e nt
di s c ri mi n ati o n a n d t h e b e d r o c k p ri n ci pl e t h at s p e e c h
m a y n ot b e p u ni s h e d b e c a u s e li st e n e r s a r e off e n d e d.
Ti n k e r all o w s s c h o ol s t o p u ni s h s p e e c h f o r it s c o nt e nt
w h e n “t h e s c h o ol a ut h o riti e s h a[ v e] r e a s o n t o
a nti ci p at e t h at t h e [ s p e e c h] w o ul d s u b st a nti all y
i nt e rf e r e wit h t h e w o r k of t he s c h o ol o r i m pi n g e u p o n
t h e ri g ht s of ot h e r st u d e nt s.” 3 9 3 U. S. at 5 0 6, 5 0 9.
B ut Ti n k e r g r a nt s t hi s a ut h o rit y o nl y “i n s c h o ol s.” 3 9 3
U .S. at 5 0 7.
Ti n k e r ’ s d e cl a r ati o n t h at st u d e nt s d o n ot “ s h e d
t h ei r c o n stit uti o n al ri g ht s t o f r e e d o m of s p e e c h o r
e x p r e s si o n
at t h e s c h o ol h o u s e
g at e ”
pl ai nl y
di sti n g ui s h e s i n si d e f r o m o ut si d e s c h o ol. I d. a t 5 0 6
( e m p h a si s a d d e d). A n d it p r e s u m e s t h at y o u n g p e o pl e
g e n e r all y h a v e f ull Fi r st A m e n d m e nt ri g ht s o ut si d e
s c h o ol. I d. at 5 0 6 – 0 7 , 5 1 2 – 1 3. R e c o g ni zi n g t h e n e e d
of “ s c h o ol offi ci al s . . . t o p r e s c ri b e a n d c o nt r ol c o n d u ct
i n s c h o ol s,” i d. at 5 0 7 ( e m p h a si s a d d e d), Ti n k e r w a s
e x p r e s sl y p r e di c at e d o n, a n d li mit e d t o, t h e “ s p e ci al
c h a r a ct e ri sti c s of t h e s c h o ol e n vi r o n m e nt.” I d. at 5 0 6.

13

A s c h o ol’ s s u p e r vi si o n of it s st u d e nt s e xt e n d s
b e y o n d “ m e r el y t h e cl a s s r o o m h o u r s” t o t h e w h ol e
“ s c h o ol e n vi r o n m e nt ,” i n cl u di n g “t h e c af et e ri a,” “t h e
pl a yi n g fi el d,” a n d “ c a m p u s d u ri n g t h e a ut h o ri z e d
h o u r s.” I d. at 5 1 2 – 1 3. A n d th e s c h o ol e n vi r o n m e nt
i n cl u d e s “ s c h o ol-s a n cti o n e d a n d s c h o ol -s u p e r vi s e d
e v e nt[ s],” s u c h a s “ cl a s s [fi el d] t ri p s,” d a n c e s, o r f ai r s;
a n d i n t o d a y’ s r e alit y, r e m ot e l e a r ni n g. S e e M o r s e v.
F r e d e ri c k , 5 5 1 U. S. 3 9 3, 3 9 6, 4 0 0– 0 1 ( 2 0 0 7) . B ut t hi s
li st i s n ot a bl e f o r w h at it d o e s n ot i n cl u d e: s p e e c h
o ut si d e t h e s c h o ol ’ s s u p e r vi si o n.3
E a c h of t h e C o u rt’ s t h r e e p o st -Ti n k e r s c h o ol s p e e c h c a s e s r e affi r m s t h at t h ei r r e st ri cti o n s o n
s p e e c h a r e li mit e d t o t h e “ s p e ci al c h a r a ct e ri sti c s of t h e
s c h o ol e n vi r o n m e nt.” It i s n o a c ci d e nt t h at t h e C o u rt
c all s t h e s e p r e c e d e nt s t h e “ s c h o ol s p e e c h” c a s e s; t h e y
t u r n o n t h e s p e e c h t a ki n g pl a c e u n d e r s c h o ol
s u p e r vi si o n. M o r s e , 5 5 1 U. S. at 4 0 1. T h e y e st a bli s h
t h at “ s c h o ol s m a y r e g ul at e s o m e s p e e c h i n t h e s c h o ol
‘e v e n t h o u g h t h e g o v e r n m e nt c o ul d n ot c e n s o r si mil a r
s p e e c h o ut si d e t h e s c h o ol .’” M o r s e , 5 5 1 U. S. at 4 0 1
( e m p h a si s a d d e d).

S c h o ol s g e n e r all y h a v e s u p e r vi s o r y r e s p o n si bilit y a n d o p e r at e
i n l o c o p a r e nti s f o r st u d e nt s d u ri n g s c h o ol h o u r s a n d w h e n t h e y
a r e t r a v eli n g t o a n d f r o m s c h o ol. S e e, e. g. , 2 4 P a. St at. a n d C o n s.
St at. A n n. § 5 -5 1 0 ( a u t h o ri zi n g s c h o ol b o a r d s t o r e g ul at e
st u d e nt s “ d u ri n g s u c h ti m e s a s t h e y a r e u n d e r t h e s u p e r vi si o n of
t h e b o a r d of s c h o ol di r e ct o r s a n d t e a c h e r s, i n cl u di n g t h e ti m e
n e c e s s a ril y s p e nt i n c o mi n g t o a n d r et u r ni n g f r o m s c h o ol” ); L a.
R e v. St at. § 1 7: 4 1 6 ( si mil a r); T e n n. C o d e A n n. § 4 9-6 -4 1 0 2
( si mil a r); V a. C od e A n n. § 2 2. 1 -7 8 ( si mil a r). T h e p ri n ci p l e i s
l o n g st a n di n g. S e e, e. g. , D e s ki n s v. G o s e , 8 5 M o. 4 8 5, 4 8 7 ( 1 8 8 5)
( u p h ol di n g s c h o ol’ s di s ci pli n e of st u d e nt s b e c a u s e t h e a ct s w e r e
d o n e “ w hil e t h e p u pil s a r e r et u r ni n g t o t h ei r h o m e s, a n d b ef o r e
p a r e nt al c o nt r ol i s r e s u m e d”).
3

14

I n B et h el S c h o ol Di st ri ct N o. 4 0 3 v. F r a s e r , 4 7 8
U. S. 6 7 5 ( 1 9 8 6), f o r e x a m pl e, t h e C o u rt u p h el d t h e
c o nt e nt -b a s e d s u s p e n si o n of a st u d e nt f o r d eli v e ri n g a
l e w d s p e e c h at a “ r e q uir e d” st u d e nt a s s e m bl y b e c a u s e
it w a s “ p a rt of a s c h o ol -s p o n s o r e d e d u c ati o n al
p r o g r a m.”
I d. at 6 7 7. T h e C o u rt r e a s o n e d t h at
s c h o ol s m a y d efi n e “ w h at m a n n e r of s p e e c h [i s
a p p r o p ri at e] i n t h e cl a s s r o o m o r i n s c h o ol a s s e m bl y,”
“ e s p e ci all y [ w h e n st u d e nt s a r e] i n a c a pti v e [ a n d
u n s u s p e cti n g] a u di e n c e.”
I d. at 6 8 3, 6 8 4, 6 8 5
( e m p h a si s a d d e d). “H a d F r a s e r d eli v e r e d t h e s a m e
s p e e c h i n a p u bli c f o r u m o ut si d e t h e s c h o ol c o nt e xt, it
w o ul d h a v e b e e n p r ot e ct e d.” M o r s e , 5 5 1 U. S. at 4 0 5.
T h e s a m e di sti n cti o n w a s di s p o siti v e i n
H a z el w o o d S c h o ol Di st ri ct v. K u hl m ei e r , 4 8 4 U. S. 2 6 0
( 1 9 8 8).
T h e r e, t h e C o u rt p e r mitt e d t h e s c h o ol t o
e n g a g e i n c o nt e nt -b a s e d c e n s o r s hi p of a s c h o ol
n e w s p a p e r b e c a u s e it w a s a “ r e g ul a r cl a s s r o o m
a cti vit y” a n d “ s u p e r vi s e d l e a r ni n g e x p e ri e n c e” “ d u ri n g
r e g ul a r cl a s s h o u r s .” I d. at 2 6 8, 2 7 0.
B ut “‘t h e
g o v e r n m e nt c o ul d n ot c e n s o r si mil a r s p e e c h o ut si d e
t h e s c h o ol.’”
M o r s e , 5 5 1 U . S. at 4 0 6 ( q u oti n g
K u hl m ei e r , 4 8 4 U. S. at 2 6 6).
T h e K u hl m ei e r C o u rt
e x p r e s sl y di sti n g ui s h e d eff o rt s t o c o nt r ol y o u n g
p e o pl e’ s s p e e c h i n “ st r e et s, p a r k s, a n d ot h e r
t r a diti o n al p u bli c f o r u m s,” K u hl m ei e r , 4 8 4 U. S. at
2 6 7, a s
w ell a s i n i n d e p e n d e ntl y p r o d u c e d
u n d er gr o u n d
n e w s p a p e r s,
i d.
at
271
n. 3
( di sti n g ui s hi n g P a pi s h v. U ni v . of M o. B d . of C u r at o r s ,
4 1 0 U. S. 6 6 7, 6 7 0 – 7 1 ( 1 9 7 3) ); s e e al s o T h o m a s v. B d.
of E d u c ., 6 0 7 F. 2 d 1 0 4 3, 1 0 5 1 ( 2 d Ci r. 1 9 7 9) ( h ol di n g
t h at hi g h s c h o ol c o ul d n ot r el y o n Ti n k e r t o p u ni s h
st u d e nt s f o r c o nt e nt s of a n off -c a m p u s, u n d e r g r o u n d
p a p e r).

15

I n M o r s e, t h e C o u rt d r e w t h e s a m e li n e . It
u p h el d t h e vi e w p oi nt -b a s e d di s ci pli n e of a st u d e nt f o r
di s pl a yi n g a p r o -d r u g m e s s a g e b e c a u s e t h e s p e e c h
t o o k pl a c e at “ a n a p p r o v e d s o ci al e v e nt o r cl a s s t ri p”
t h at “ o c c u r r e d d u ri n g n o r m al s c h o ol h o u r s” a n d at
w hi c h t e a c h e r s w e r e “ c h a r g e d wit h s u p e r v i si n g
[ st u d e nt s].” 5 5 1 U. S . at 4 0 0 – 0 1.
H a d Jose p h
F r e d e ri c k di s pl a y e d t h e s a m e si g n f r o m hi s b e d r o o m
wi n d o w o r o n hi s p e r s o n al F a c e b o o k p a g e, h e c o ul d n ot
h a v e b e e n p u ni s h e d. I d. at 4 0 9 (li miti n g h ol di n g t o
“ st u d e nt a d v o c a c y of ill e g al d r u g u s e at s c h o ol e v e nt s ”)
( e m p h a si s a d d e d).
A s n ot e d i n M o r s e , i d. at 4 0 6, F o u rt h
A m e n d m e nt d o ct ri n e d r a w s a si mil a r li n e. I n “t h e
s c h o ol s etti n g,” a ut h o riti e s a r e p e r mitt e d t o s e a r c h
st u d e nt s’ p o s s e s si o n s o n r e a s o n a bl e s u s pi ci o n,
wit h o ut a w a r r a nt. N e w J e r s e y v. T. L. O. , 4 6 9 U. S.
3 2 5, 3 4 0 ( 1 9 8 5) , B ut a s c h o ol pl ai nl y c o ul d n ot c o n d u ct
w a r r a ntl e s s s e a r c h e s of y o u n g p e o pl e’ s b a c k p a c k s at
h o m e, at c h u r c h , o r el s e w h e r e o ut si d e t h e s c h o ol
e n vi r o n m e nt. “ F o u rt h A m e n d m e nt ri g ht s . . . a r e
diff e r e nt i n p u bli c s c h o ol s t h a n el s e w h e r e” b e c a u s e of
“t h e s c h o ol s’ c u st o di al a n d t ut el a r y r e s p o n si bilit y f o r
c hil d r e n.” V e r n o ni a S c h. Di st. 4 7 J v. A ct o n , 5 1 5 U. S.
6 4 6, 6 5 6 ( 1 9 9 5) ( e m p h a si s a d d e d). 4
I n s h o rt, t h e C o u rt’ s “ s c h o ol s p e e c h” c a s e s
i n v ol v e, a s t h e n a m e s u g g e st s, sp e e c h “i n s c h o ol,” a t
“ s c h o ol e v e nt s,” a n d i n “ s c h o ol -s a n cti o n e d a n d P etiti o n e r s u g g e st s t h at t h e C o u rt’ s s c h o ol d r u g -t e sti n g c a s e s
i m pl y t h at r e d u c e d F o u rt h A m e n d m e nt ri g ht s e xt e n d b e y o n d t h e
s c h o ol e n vi r o n m e nt b e c a u s e a d r u g t e st mi g h t c o n c ei v a bl y b e
a d mi ni st e r e d o ut si d e s c h o ol. P et. B r. 2 4. B ut i n b ot h c a s e s, t h e
u ri n e s a m pl e s w e r e t a k e n at s c h o ol. V e r n o ni a S c h. Di st. 4 7 J. ,
5 1 5 U. S. at 6 5 0; B d. of E d u c. of I n d e p. S c h. Di st. N o. 9 2 of
P ott a w at o mi e Ct y. v. E a rl s , 5 3 6 U. S. 8 2 2, 8 3 2 ( 2 00 2) .
4

16

s u p e r vi s e d f o r u m s.” M o r s e , 5 5 1 U. S. at 3 9 6, 4 0 5.
W h e r e s c h o ol s e x e r ci s e s u p e r vi s o r y r e s p o n si bilit y,
s c h o ol a ut h o riti e s m a y e n g a g e i n c o nt e nt - a n d e v e n
vi e w p oi nt -b a s e d di s c ri mi n ati o n.
B ut o ut si d e t h e
s c h o ol e n vi r o n m e nt, t h e st at e p r e s u m pti v el y m a y n ot
r e g ul at e s p e e c h o n t h e b a si s of it s c o nt e nt, e v e n if it
e x p r e s s e s a m e s s a g e t h e s c h o ol di s a p p r o v e s of, u s e s
p r of a nit y, o r c a u s e s li st e n e r s t o o bj e ct i n a di s r u pti v e
way .
C.

Li mi ti n g
Ti n k e r
to t he
S c h o ol
E n vi r o n m e n t
M a k es
D o c t ri n al
S e n s e.

T h e r e a r e s o u n d r e a s o n s f o r t h e C o u rt’ s c a r ef ul
li mit ati on of Ti n k e r a n d it s p r o g e n y t o s p e e c h wit hi n
t h e s c h o ol e n vi r o n m e nt. Fi r st, e m p o w e ri n g s c h o ol s t o
e n g a g e i n c o nt e nt c e n s o r s hi p wit hi n t h e s c h o ol i s
t ol e r a bl e o nl y b e c a u s e y o u n g p e o pl e o ut si d e t h at
e n vi r o n m e nt a r e n ot s o li mit e d.
B y c o nfi ni n g t h e
st at e’ s a ut h o rit y t o e n g a g e i n c o nt e nt di s c ri mi n ati o n
t o t h e s c h o ol, t h e r ul e “‘l e a v e[ s] o p e n a m pl e
alt e r n ati v e c h a n n el s ’” f o r f r e e s p e e c h. M c C ull e n v.
C o a kl e y , 5 7 3 U. S. 4 6, 4 7 7 ( 2 0 1 4) ( q u oti n g W a r d v.
R o c k A g ai n st R a ci s m, 4 9 1 U. S. 7 8 1, 7 9 1( 1 9 8 9) ).
S e c o n d, t h e Ti n k e r st a n d a r d i s i n e s c a p a bl y
v a g u e, m a ki n g it a n u n a c c e pt a bl e b a si s f o r r e g ul ati n g
s p e e c h i n t h e w o rl d at l a r g e.
N eit h e r o f Ti n k e r ’ s
p r o n g s — “ s u b st a nti al di s r u pti o n” o r “i nt e rf e r e n c e wit h
t h e ri g ht s of ot h e r s” — p r o vi d e s uffi ci e nt g ui d a n c e f o r
w h at s p e e c h i s all o w e d o ut si d e s c h o ol. W e r e a t o w n t o
e n a ct a n o r di n a n c e p r o hi biti n g s p e e c h t h at “l e a d s t o
s u b st a nti al di s r u pti o n o r i nt e rf e r e s wit h t h e ri g ht s of
ot h e r s,” it w o ul d b e u n c o n stit uti o n all y v a g u e. S e e
C o at e s v. Cit y of Ci n ci n n ati , 4 0 2 U. S. 6 1 1, 6 1 4 ( 1 9 7 1)
( a p r o hi biti o n t h at t u r n s o n a li st e n e r’ s r e a cti o n i s
17

“ v a g u e . . . i n t h e s e n s e t h at n o st a n d a r d of c o n d u ct i s
s p e cifi e d at all”) . T h e “ s u b st a nti al di s r u pti o n” p r o n g
p e r mit s p u ni s h m e nt of lit e r all y a n yt hi n g o n e s a y s if it
l e a d s t o “ s u b st a nti al di sr u pti o n,” o r e v e n t h e
li k eli h o o d t h e r e of.
M u c h li k e t h e “ o ut r a g e o u s n e s s” st a n d a r d
i n v ali d at e d i n S n y d e r v. P h el p s , “ s u b st a nti al
di s r u pti o n” i s a “ hi g hl y m all e a bl e st a n d a r d wit h a n
i n h e r e nt s u bj e cti v e n e s s a b o ut it w hi c h w o ul d all o w
[ s c h o ol offi ci al s] t o im p o s e li a bilit y o n t h e b a si s of …
[ a d mi ni st r at o r s’] di sli k e of a p a rti c ul a r e x p r e s si o n.”
5 6 2 U. S. 4 4 3, 4 5 8 ( 2 0 1 1) (i nt e r n al q u ot ati o n s a n d
cit ati o n s o mitt e d). T h e Ti n k e r C o u rt d e e m e d s u c h a n
o p e n -e n d e d st a n d a r d, a n d it s att e n d a nt ri s k s,
n e c e s s a r y wit hi n t h e s c h o ol.
B ut o ut si d e s c h o ol,
“[ s] u c h a ri s k i s u n a c c e pt a bl e; i n p u bli c d e b at e [ w e]
m u st t ol e r at e i n s ulti n g, a n d e v e n o ut r a g e o u s, s p e e c h
i n o r d e r t o p r o vi d e a d e q u at e b r e at hi n g s p a c e t o t h e
fr e e d o ms
p r ot e ct e d
by
t h e Fi r st A m e n d m e nt.”
S n y d e r , 5 6 2 U. S. at 4 5 8 (i nt er n al q u ot ati o n s a n d
cit ati o n o mitt e d).
T hi r d, c o nfi ni n g
Ti n k e r
t o t h e s c h o ol
e n vi r o n m e nt a v oi d s i nt r u si o n o n p a r e nt s’ “ a ut h o rit y
i n t h ei r o w n h o u s e h ol d t o di r e ct t h e r e a ri n g of t h ei r
c hil d r e n.” R e n o , 5 2 1 U. S. at 8 6 4 — 6 5; M e y e r v.
N e b r a s k a , 2 6 2 U. S. 3 9 0 ( 1 9 2 3) . “ It i s a d a n g e r o u s
fi cti o n t o p r et e n d t h at p a r e nt s si m pl y d el e g at e t h ei r
a ut h o rit y — i n cl u di n g t h ei r a ut h o rit y t o d et e r mi n e
w h at t h ei r c hil d r e n m a y s a y a n d h e a r — t o p u bli c
s c h o ol a ut h o riti e s.” M o r s e , 5 5 1 U. S. at 4 2 4 ( Alit o, J.,
c o n c u r ri n g).
Att e m pt s t o “i m p o s e g o v e r n m e nt al
a ut h o rit y” o n “ c hil d r e n’ s s p e e c h a n d r eli gi o n” b a s e d o n
“ w h at t h e St at e t hi n k s p a r e nt s o u g ht t o w a nt”
u n d e r c ut s t h e s e ri g ht s. B r o w n , 5 6 4 U. S. at 7 9 5 n. 3,
8 0 4. T h u s, t h e C o u rt h a s p r e vi o u sl y r ej e ct e d l a w s t h at
18

c o ul d di st u r b t h e a ut h o rit y of a p a r e nt t o “ all o w[ ] h e r
1 7 -y e a r -ol d t o u s e t h e f a mil y c o m p ut e r t o o bt ai n
i nf o r m ati o n o n t h e I nt e r n et t h at s h e, i n h e r p a r e nt al
j u d g m e nt, d e e m s a p p r o p ri at e.” R e n o , 5 2 1 U. S. at 8 7 8.
W hil e p a r e nt s n e c e s s a ril y c e d e
i n l o c o p a r e nti s
a ut h o rit y t o s c h o ol s w h e n t h ei r c hil d r e n a r e at s c h o ol,
t h e y r e g ai n t h o s e ri g ht s w h e n t h ei r c hil d r e n r et u r n
h o m e.
Fi n all y,
c o nfi ni n g Ti n k e r
t o t h e s c h o ol
e n vi r o n m e nt r efl e ct s t h e f a ct t h at s c h o ol s h a v e
g r e at e r l e e w a y t o r e g ul at e s p e e c h i n s c h o ol i n p a rt
b e c a u s e st u d e nt s a r e a “ c a pti v e a u di e n c e.” F r a s e r ,
4 7 8 U. S. at 6 8 3 – 8 4 ; s e e al s o S a x e v. St at e C oll. A r e a
S c h. Di st. , 2 4 0 F. 3 d 2 0 0, 2 0 9– 1 0 ( 3 d Ci r. 2 0 0 1) ( Alit o,
J.) ( s p e e c h m a y b e m o r e r e a dil y s u bj e ct t o r e st ri cti o n s
w h e n a s c h o ol o r w o r k pl a c e a u di e n c e i s “ c a pti v e”) .
P etiti o n e r o bj e ct s t h at st u d e nt s a r e c a pti v e o nl y i n t h e
cl a s s r o o m, P et. B r. 2 1 – 2 2, b ut “ c hil d r e n a r e j u st a s
m u c h of a c a pt i v e a u di e n c e i n t he h all w a y s, c af et e ri a,
o r l o c k e r r o o m s a s t h e y a r e i n offi ci al s c h o ol
a s s e m bli e s a n d cl a s s r o o m s.” B. H. e x r el . H a w k v.
E a st o n A r e a S c h . Di st ., 7 2 5 F. 3 d 2 9 3, 3 0 7 n. 1 4 ( 3 d Ci r.
2 0 1 3) ( e n b a n c).
D.

E x p a n di n g Ti n k e r B e y o n d t h e S c h o ol
E n vi r o n m e n t
W o ul d
R a di c all y
U n d e r mi n e Y o u n g P e o pl e’ s F r e e d o m
of S p e e c h.

A b ri ef r e vi e w of Ti n k e r c a s e s a ri si n g wit hi n t h e
s c h o ol e n vi r o n m e nt ill u st r at e s t h e d a n g e r s of gi vi n g
s c h o ol s t h e s a m e c e n s o ri a l a ut h o rit y o ut si d e of s c h o ol.
U n d e r Ti n k e r , c o u rt s h a v e s u st ai n e d di s ci pli n e of
st u d e nt s wit hi n s c h o ol f o r:

19

●

W e a ri n g a s hi rt st ati n g, “ h o m o s e x u alit y i s
s h a m ef ul. R o m a n s 1: 2 7;” 5

●

Q u oti n g s c ri pt u r e a n d di st ri b uti n g s m all
r u b b e r d oll s al o n g w it h c a r d s st ati n g t h at
t h e y “ r e p r e s e nt e d t h e a ct u al si z e a n d w ei g ht
of a ‘ 1 2 w e e k ol d b a b y ;’”6

●

W e a ri n g s hi rt s t h at r e a d “ W e A r e N ot
C ri mi n al s” t o p r ot e st a n i m mi g r ati o n bill; 7

●

W e a ri n g a s hi rt t h at di s pl a y e d t h e
A m e ri c a n fl a g a n d st at e d “ Ol d Gl o r y Fl e w
o v e r le g ali z e d sl a v e r y f o r 9 0 y e a r s;” 8

●

Di s pl a yi n g a C o nf e d e r at e fl a g, 9 d r a wi n g a
C o nf e d e r at e
fl a g, 1 0
w e a ri n g
cl ot hi n g
d e pi cti n g t h e
C o nf e d e r at e fl a g, 1 1 a n d
w e a ri n g cl ot hi n g t h at st at e d “ O u r S c h o ol

H a r p e r v. P o w a y U nifi e d S c h. Di st ., 4 4 5 F. 3 d 1 1 6 6, 1 1 7 1, 1 1 7 9
( 9t h Ci r. 2 0 0 6), c e rt. g r a nt e d, j u d g m e nt v a c at e d s u b n o m. H a r p e r
e x r el. H a r p e r v. P o w a y U nifi e d S c h. Di st. , 5 4 9 U. S. 1 2 6 2 ( 2 0 0 7).
5

T a yl o r v. R o s w ell I n d e p. S c h. Di st. , 7 1 3 F. 3 d 2 5, 3 0– 3 1, 3 8 ( 1 0t h
Ci r. 2 0 1 3) .
6

M a d ri d v. A nt h o n y , 5 1 0 F. S u p p. 2 d 4 2 5, 4 2 8, 4 3 5 – 3 6 ( S. D. T e x.
2 0 0 7) .
7

H a r d wi c k e x r el. H a r d wi c k v. H e y w a r d , 7 1 1 F. 3 d 4 2 6, 4 4 0 ( 4t h
Ci r. 2 0 1 3).
8

S c ott v. S c h. B d. of Al a c h u a Ct y ., 3 2 4 F. 3 d 1 2 4 6, 1 2 4 7– 4 9 ( 1 1t h
Ci r. 2 0 0 3) .
9

W e st v. D e r b y U nifi e d S c h. Di st . N o. 2 6 0, 2 0 6 F. 3 d 1 3 5 8, 1 3 6 1,
1 3 6 6 – 6 7 ( 1 0t h Ci r. 2 0 0 0) .
10

D ef o e e x r el. D ef o e v. S pi v a , 6 2 5 F. 3 d 3 2 4, 3 2 9, 3 3 3– 3 6 ( 6t h Ci r.
2 0 1 0) ; A. M. e x r el. M c All u m v. C a s h , 5 8 5 F. 3 d 2 1 4, 2 1 7, 2 2 2 ( 5t h
Ci r. 2 0 0 9) .
11

20

S u p p o rt s F r e e d o m of S p e e c h f o r All ( E x c e pt
S o ut h e r n e r s) ;” 1 2
●

S i g ni n g a p etiti o n st ati n g t h at f o ot b all
pl a y e r s di d n ot w a nt t o pl a y f o r t h ei r c o a c h
aft e r h e w a s a c c u s e d of a b u si n g pl a y e r s; 1 3
and

●

W e a ri n g a
U ni v e r sit y of S a n
Di e g o
s w e at s hi rt a n d L o s A n g el e s L a k e r s a n d
D o d g e r s j e r s e y s. 1 4

It m a y s o m eti m e s b e p e r mi s si bl e t o b a r a
st u d e nt f r o m
w e a ri n g a s hi rt di s pl a yi n g t h e
C o nf e d e r at e fl a g i n s c h o ol, b ut s u r el y s c h o ol s s h o ul d
n ot b e a bl e t o p e n ali z e st u d e nt s f o r p o sti n g s u c h a n
i m a g e o n t h ei r F a c e b o o k p a g e s. U n d e r P etiti o n e r’ s
t e st, e v e r y o n e of t h e s e e x a m p l e s w o ul d b e e q u ally
s u bj e ct t o p u ni s h m e nt if c o m m u ni c at e d t o a cl a s s m at e
o ut si d e s c h o ol a n d st u d e nt s i n s c h o ol r e s p o n d e d ( o r
e v e n w e r e li k el y t o r e s p o n d) i n a di s r u pti v e m a n n e r.
M o st st u d e nt s a n d f a mili e s d o n ot h a v e t h e
m e a n s t o liti g at e s u c h di s p ut e s. I n r e c e nt i n ci d e nt s
t h at n e v e r r e a c h e d liti g ati o n, o r di d n ot r e s ult i n a
r e p o rt e d d e ci si o n, s c h o ol s h a v e di s ci pli n e d st u d e nt s
f o r t h e f oll o wi n g:

H a r d wi c k , 7 1 1 F. 3 d. at 4 3 1, 4 3 7 – 3 8 ( 4t h Ci r. 2 0 1 3); s e e al s o
B. W. A. v. F a r mi n gt o n R -7 S c h. Di st ., 5 5 4 F. 3 d 7 3 4, 7 3 7, 7 3 9– 4 1
( 8t h Ci r. 2 0 0 9).
12

13

L o w e r y v. E u v e r a r d , 4 9 7 F. 3 d 5 8 4, 5 8 5, 5 9 3 ( 6t h Ci r. 2 0 0 7) .

J e gli n e x r el. J e gli n v. S a n J a ci nt o U nifi e d S c h. Di st ., 8 2 7 F.
S u p p. 1 4 5 9, 1 4 6 1, 1 4 6 2 ( C. D. C al. 1 9 9 3) .
14

21

●

P o sti n g a p h ot o a n d vi d e o t o T witt e r
s h o wi n g h o w c r o w d e d s c h o ol h all w a y s w e r e
i n t h e mi d dl e of t h e C O V I D -1 9 p a n d e mi c; 1 5

●

W e a ri n g a s hi rt t h at s ai d “ All t h e C o ol Gi rl s
a r e L e s bi a n s ;” 1 6

●

W e a ri n g
ki d s ;” 1 7

●

C riti ci zi n g a n ot h e r st u d e nt f o r
r a ci st m e s s a g e s; 1 8

●

C riti ci zi n g cl a s s m at e s f o r p o sti n g a vi d e o i n
w hi c h t h e y p u m p e d a s h ot g u n a n d a s k e d
w h o i s “ r e a d y t o g o [ N -w o r d] h u nti n g ? ;” 1 9
and

●

P o sti n g p h ot o s o n S n a p c h at d e pi cti n g a
w e e k e n d t ri p t o a g u n r a n g e, wit h g u n s t h at

s hi rt s

st ati n g

“ a b o rti o n

kill s

s e n di n g

Elli ot H a n n o n, G e o r gi a Hi g h S c h o ol St u d e nt s S u s p e n d e d f o r
S o ci al M e di a P o st s S h o wi n g P a c k e d H all w a y s , S L A T E ( A u g. 7,
2 0 2 0), htt p s:// sl at e. c o m/ n e w s -a n d -p oliti c s/ 2 0 2 0/ 0 8/ g e o r gi a -n o rt h
-p a ul di n g -hi g h -s c h o ol -st u d e nt s -s u s p e n d e d -s o ci al -m e di a -p o st s p a c k e d -h all w a y s. h t ml .
15

16

C at h e ri n e J . R o s s, L e s s o n s i n C e n s o r s hi p 1 3 9 ( 2 0 1 5) .

I d. ; A nti -a b o rti o n T -s hi rt s at C e nt e r of S c h o ol A r g u m e nt , Si o u x
Cit y J o u r n al ( A p r. 3 0, 2 0 0 5), htt p s:// si o u x cit yj o u r n al. c o m/ n e w s/
st at e -a n d -r e gi o n al/ a nti -a b o rti o n -t-s hi rt s -at -c e nt e r -of -s c h o ol a r g u m e nt/ a rti cl e _ b 9 d 3 cf 1 a -f a 5 c-5 a 6 3 -9 2 7 d -af 7 4 9 c a 7 b b 9 9. ht ml .
17

A C L U U r g e s S h a k e r H ei g ht s Hi g h S c h o ol t o R e v e r s e D e ci si o n
t o P u ni s h St u d e nt s f o r F r e e S p e e c h , A C L U ( N o v. 1 4, 2 0 1 6),
htt p s:// w w w. a cl u o hi o. o r g/ a r c hi v e s/ p r e s s -r el e a s e s/ a cl u -u r g e s s h a k e r -h ei g ht s -hi g h -s c h o ol -t o-r e v e r s e -d e ci si o n -t o-p u ni s h st u d e nt s -f o r-f r e e-s p e e c h ? c = 1 7 4 5 3 4.
18

Ali s s a Wi d m a n, R a ci all y C h a r g e d V i d e o L e a d s t o D i s ci pli n e
f o r 3 Pi c k e ri n gt o n C e nt r al S t u d e nt s, T h e C ol u m b u s Di s p at c h
( A p r. 1 3, 2 0 1 6),htt p s:// w w w. di s p at c h. c o m/ a rti cl e/ 2 0 1 6 0 4 1 2/ N E W
S/ 3 0 4 1 2 9 8 5 1 .
19

22

w e r e l e g all y
li c e n s ed .2 0

p urc h as e d

and

p r o p e rl y

St u d e nt s u n d e r st a n d a bl y h a v e t o c u rt ail w h at
t h e y s a y wit hi n t h e s c h o ol e n vi r o n m e nt. B u t t h e y
s h o ul d n ot ri s k s c h o ol di s ci pli n e f o r w h at t h e y s a y o n
a s p ri n g b r e a k mi s si o n t ri p wit h t h ei r c h u r c h y o ut h
g r o u p, o r i n a f ri e n d’ s li vi n g r o o m at a w e e k e n d
g at h e ri n g, m e r el y b e c a u s e t h e s c h o ol t hi n k s it mi g ht
b e “ di s r u pti v e.”
T h e I nt e r n et d o e s n ot j u stif y Ti n k e r ’ s e x p a n si o n
b e y o n d t h e s c h o ol e n vi r o n m e nt .
N o n e of t h e t e st s
p r o p o s e d b y P etiti o n e r o r it s a mi ci a r e li mit e d t o
o nli n e c o m m u ni c ati o n s, n o r i s t h e r e a n y p ri n ci pl e d
b a si s f o r d oi n g s o. A n d e v e n if t h e s c h o ol’ s c e n s o ri al
a ut h o rit y w e r e s o li mit e d, it w o ul d c o m e at t o o g r e at a
c o st. “ W hil e i n t h e p a st t h e r e m a y h a v e b e e n diffi c ult y
i n i d e ntif yi n g t h e m o st i m p o rt a nt pl a c e s (i n a s p ati al
s e n s e) f o r t h e e x c h a n g e of vi e w s, t o d a y t h e a n s w e r i s
cl e a r. It i s c y b e r s p a c e — t h e ‘ v a st d e m o c r ati c f o r u m s of
t h e I nt e r n et’ i n g e n e r al, a n d s o ci al
m e di a i n
p a rti c ul a r.” P a c ki n g h a m v. N o rt h C a r oli n a , 1 3 7 S. Ct.
1 7 3 0, 1 7 3 5 ( 2 0 1 7) ( q u oti n g R e n o , 5 2 1 U. S. at 8 6 8 ).
R e st ri cti n g y o u n g p e o pl e’ s s p e e c h w o ul d al s o
i n e vit a bl y i nf ri n g e o n t h e ri g ht s of t h o s e w h o w a nt t o
h e a r w h at t h e y h a v e t o s a y, i n cl u di n g a d ult s. “ I n
o r d e r t o d e n y mi n o r s a c c e s s t o p ot e nti all y h a r mf ul
s p e e c h, [ P etiti o n e r’ s r ul e w o ul d] eff e cti v el y s u p p r e s s
[] a l a r g e a m o u nt of s pe e c h t h at a d ult s h a v e a
c o n stit uti o n al ri g ht t o r e c ei v e.” R e n o , 5 2 1 U. S. at 8 7 4.
R o b b y S o a v e, Hi g h S c h o ol S u s p e n d s 2 St u d e nt s f o r P o sti n g
G u n R a n g e P h ot o s o n S n a p c h at, A C L U Fil e s S uit , R e a s o n
( A p r. 1 1, 2 0 1 9), h tt p s:// r e a s o n. c o m/ 2 0 1 9/ 0 4/ 1 1/ hi g h -s c h o ol -g u n s n a p c h at -s u s p e n si o n -a cl u/ .
20

23

E x p a n di n g Ti n k e r c o ul d al s o m a k e s c h o ol
a d mi ni st r ati o n e v e n m o r e c h all e n gi n g b y c r e ati n g a n
e x p e ct ati o n t h at p ri n ci p al s
will
m o nit o r a n d
a dj u di c at e c o nt r o v e r si al st u d e nt s p e e c h 2 4 h o u r s a
d a y, 3 6 5 d a y s a y e a r. A n d it c o ul d p r o m pt s c h o ol s t o
c o n d u ct d r a g n et o nli n e s u r v eill a n c e of t h ei r st u d e nt s’
off -c a m p u s a n d o nli n e c o m m u ni c ati o n s, f u rt h e r
d et e r ri n g s t u d e nt s f r o m s p e a ki n g f r e el y o ut si d e of
s c h o ol.
Fi n all y, a n d p e r h a p s
m o st i m p o rt a ntl y,
P etiti o n e r’ s r ul e w o ul d t e a c h st u d e nt s t h e w r o n g
l e s s o n. A s Ti n k e r it s elf s ai d, “[t] h e N ati o n’ s f ut u r e
d e p e n d s u p o n l e a d e r s t r ai n e d t h r o u g h wi d e e x p o s u r e
t o t h at r o b u st e x c h a n g e of i d e a s w hi c h di s c o v e r s t r ut h
‘ o ut of a m ultit u d e of t o n g u e s, ( r at h e r) t h a n t h r o u g h
a n y ki n d of a ut h o rit ati v e s el e cti o n.’” Ti n k e r , 3 9 3 U. S.
at 5 1 2 ( q u oti n g K e yi s hi a n v. B d . of R e g e nt s of t h e U ni v.
of t h e St at e of N. Y. , 3 8 5 U. S. 5 8 9 , 6 0 3 ( 1 9 6 7)). B ut
e x p a n di n g Ti n k e r t o s p e e c h o ut si d e t h e s c h o ol
e n vi r o n m e nt w o ul d t e a c h y o u n g p e o pl e t o a v oi d
s a yi n g a n yt hi n g t h at
mi g ht b e c o nt r o v e r si al,
p ol iti c all y i n c o r r e ct, o r c riti cal of t h e st at u s q u o, f o r
f e a r of g o v e r n m e nt al r et ri b uti o n.
E.

Li mi ti n g
Ti n k e r
to t he
S c h o ol
E n vi r o n m e n t
W o ul d N o t P r e v e n t
S c h o ol s
fr o m
A d d r e s si n g
Off C a m p us
H a r a s s m e n t,
B ull yi n g,
T h r e a t s of Vi ol e n c e, a n d
Ot h e r
H a r mf ul C o n d u c t.

R e affi r mi n g t h at Ti n k e r i s li mit e d t o t h e
“ s p e ci al c h a r a ct e ri sti c s of t h e s c h o ol e n vi r o n m e nt ,”
3 9 3 U. S. at 5 0 6, w o ul d n ot p r e cl u d e s c h o ol s f r o m
a d d r e s si n g
off -c a m p u s
t h r e at s
of
vi ol e n c e,

24

h a r a s s m e nt, b ull yi n g, o r a h o st of ot h e r s p e e c h
i nt e g r all y r el at e d t o p r o s c ri b e d c o n d u ct.
O ut si d e t h e s c h o ol e n vi r o n m e nt, t h e Fi r st
A m e n d m e nt p e r mit s r e g ul at i o n of c o m p a r a bl e
c at e g o ri e s of s p e e c h , e v e n a s t o a d ult s. F o r e x a m pl e,
“t r u e t h r e at s” a r e n ot p r ot e ct e d b y t h e Fi r st
A m e n d m e nt. Vi r gi ni a v. Bl a c k , 5 3 8 U. S. 3 4 3, 3 5 9
( 2 0 0 3). N o r a r e s e v e r al ot h e r “ w ell -d efi n e d a n d
n a r r o wl y li mit e d cl a s s e s
of
s p e e c h” — n a m el y
“o b s c e nit y, d ef a m ati o n, f r a u d, i n cit e m e nt, a n d s p e e c h
i nt e g r al t o c ri mi n al c o n d u ct.” U nit e d St at e s v. St e v e n s ,
5 5 9 U. S. 4 6 0, 4 6 8 – 6 9 ( 2 0 1 0) ; s e e al s o U nit e d St at e s v.
Al v a r e z , 5 6 7 U. S. 7 0 9 , 7 1 9, i d. at 7 3 4 – 3 6 ( B r e y e r, J.,
c o n c u r ri n g) ( 2 0 1 2) ( r e c o g ni zi n g t h at f al s e s p e e c h t h at
c a u s e s h a r m c a n b e p r o hi bit e d u n d e r c e rt ai n
ci r c u m st a n c e s). I n a d diti o n, Fi r st
A m e n d m e nt
d o ct ri n e s p e r mit att e nti o n t o “ c o nt e xt u al f a ct o r s,”
Bl a c k, 5 3 8 U. S. at 3 6 7 ( pl u r alit y), a n d all o w f o r
“ a dj u st[i n g] t h e b o u n d a ri e s of a n e xi sti n g c at e g o r y of
u n p r ot e ct e d s p e e c h t o e n s u r e t h at a d efi niti o n
d e si g n e d f o r a d ult s i s n ot u n c riti c all y a p pli e d t o
c hil d r e n.” B r o w n , 5 6 4 U. S. at 7 9 4; s e e al s o Gi n s b e r g v.
N e w Y o r k , 3 9 0 U. S. 6 2 9, 6 3 8– 3 9 ( 1 9 6 8) . T h e w a y t o
d o t h at, h o w e v e r, i s n ot t h r o u g h a bl u n d e r b u s s, o n e si z e -fit s-all e x p a n si o n of Ti n k e r , b ut vi a d o ct ri n e s
n a r r o wl y t ail o r e d t o t h e s p e cifi c c o n c e r n s p r e s e nt e d.
S c h o ol s c a n p u ni s h off -c a m p u s st u d e nt s p e e c h
t h at t h r e at e n s t h e s e c u rit y o f t h e s c h o ol o r it s
m e m b e r s b y l o o ki n g t o t h e “t r u e t h r e at s” d o ct ri n e .
A n d t h at d o ct ri n e p e r mit s r e c o g niti o n t h at a
st at e m e nt t h at w o ul d n ot t h r e at e n a n a d ult m a y
n e v e rt h el e s s b e t h r e at e ni n g t o a c hil d.
S p e e c h c o n stit uti n g h a r a s s m e nt a n d b ull yi n g
c a n a l s o b e r e g ul at e d wit h o ut e x p a n di n g Ti n k e r , a s
25

s p e e c h i nt e g r al t o p r o hi bit e d c o n d u ct. S e e Gi b o n e y v.
E m pi r e St o r a g e & I c e C o ., 3 3 6 U. S. 4 9 0 ( 1 9 4 9). St at e
a n d f e d e r al l a w h a v e l o n g p r o hi bit e d di s c ri mi n at i o n
a n d h a r a s s m e nt, i n cl u di n g t h r o u g h s p e e c h. U nit e d
St at e s v. O si n g e r , 7 5 3 F. 3 d 9 3 9, 9 4 4 ( 9t h Ci r. 2 0 1 4)
( u p h ol di n g a g ai n st Fi r st A m e n d m e nt c h all e n g e a
c o n vi cti o n f o r vi ol ati o n of f e d e r al c y b e r st al ki n g l a w).
A n d Titl e s VI, V II a n d I X p r o s c ri b e di s c ri mi n at o r y
h a r a s s m e nt — i n cl u di n g t h r o ug h s p e e c h t h at c r e at e s
a n o bj e cti v el y h o stil e w o r k o r s c h o ol e n vi r o n m e nt.
T h e Fi r st A m e n d m e nt d o e s n ot b a r s u c h
r e g ul ati o n. S e e R. A. V. v. Cit y of S ai nt P a ul , 5 0 5 U. S.
3 7 7, 3 8 9 ( 1 9 9 2) ( r e c o g ni zi n g t h at “ w o r d s m a y p r o d u c e
a vi ol ati o n of Titl e V I I’ s g e n e r al p r o hi bit i o n a g ai n st
s e x u al di s c ri mi n ati o n i n e m pl o y m e nt p r a cti c e s”
wit h o ut vi ol ati n g t h e Fi r st A m e n d m e nt). T h e s e
st a n d a r d s, t o o, m a y t a k e a c c o u nt of a g e a n d c o nt e xt.
W h et h e r c o n d u ct i s s uffi ci e ntl y s e ri o u s t o c o n stit ut e
di s c ri mi n ati o n “ s h o ul d b e j u d g e d f r o m t h e p e r s p e cti v e
of a r e a s o n a bl e p e r s o n i n t h e pl ai ntiff’ s p o siti o n,
c o n si d e ri n g all t h e ci r c u m st a n c e s.”
O n c al e v.
S u n d o w n e r Off s h o r e S e r v s., I n c. , 5 2 3 U. S. 7 5, 8 1
( 1 9 9 8) (i nt e r n al q u ot ati o n s o mitt e d). T h o s e f a ct o r s
c a n i n cl u d e t h e vi cti m’ s a g e. D a vi s e x r el. L a S h o n d a
D. v. M o n r o e Ct y. B d. of E d u c. , 5 2 6 U. S. 6 2 9, 6 5 1
( 1 9 9 9). T h u s, s c h o ol s c a n r e s p o n d t o a l o w e r t h r e s h ol d
of h a r a s si n g b e h a vi o r t h a n a n e m pl o y e r c o ul d, f o r
e x a m pl e, f o r c o m m u ni c ati o n s b et w e e n a d ult s. 2 1

T h e r e a r e, of c o u r s e, b ot h st at ut o r y a n d Fi r st A m e n d m e nt
li mit s o n w h at c a n b e p r o s c ri b e d i n p a rti c ul a r a p pli c ati o n s of
s u c h a ut h o rit y. B u t a s t hi s c a s e d o e s n ot i n v ol v e h a r a s s m e nt,
b ull yi n g, o r a n y ill e g al c o n d u ct, t h o s e q u e sti o n s a r e n ot p r e s e nt e d
h e r e.
21

26

F o r t h e s a m e r e a s o n, s c h o ol s
m a y al s o
di s ci pli n e st u d e nt s f o r ai di n g a n d a b etti n g vi ol ati o n s
of s c h o ol r e g ul ati o n s of c o n d u ct. “ T h at ‘ ai di n g a n d
a b etti n g’ of a n ill e g al a ct m a y b e c a r ri e d o ut t h r o u g h
s p e e c h i s n o b a r t o it s ill e g alit y.” N at’l O r g. f o r W o m e n
v. O p e r ati o n R e s c u e , 3 7 F. 3 d 6 4 6, 65 6 ( D. C. Ci r. 1 9 9 4)
( r ej e cti n g Fi r st A m e n d m e nt c h all e n g e t o i nj u n cti o n
p r o hi biti n g ai di n g a n d a b etti n g ill e g al bl o c k a d e s of
a b o rti o n cli ni c s); U nit e d St at e s v. B ell , 4 1 4 F. 3 d 4 7 4,
4 8 3 – 8 4 ( 3 d Ci r. 2 0 0 5) ( u p h ol di n g i nj u n cti o n a g ai n st
ai di n g a n d a b etti n g t a x f r a u d). 2 2
T h u s, b e c a u s e t h e Fi r st A m e n d m e nt p e r mit s
s c h o ol s t o r e g ul at e all of t h e a b o v e a n d m a y aff o r d
s c h o ol s m o r e l e e w a y t o d o s o t h a n t h e st at e h a s wit h
r e s p e ct t o a d ult s, e x p a n di n g Ti n k e r i s u n n e c e s s a r y t o
gi v e s c h o ol s t h e t o ol s t h e y n e e d. 2 3 H e r e, a s el s e w h e r e
w h e n f r e e d o m of s p e e c h i s at st a k e, t h e C o u rt s h o ul d
b e h e sit a nt t o e x p a n d t h e st at e’ s a ut h o rit y t o e n g a g e
i n c o nt e nt-b a s e d di s c ri mi n ati o n. T h e n u a n c e d,
B e c a u s e t hi s c at e g o r y p e r mit s r e g ul ati o n of s p e e c h i nt e g r al t o
p r o hi bit e d c o n d u ct , it d o e s n ot p e r mit r e g ul ati o n s of p u r e s p e e c h,
s u c h a s P etiti o n e r’ s r ul e b a r ri n g t h e p o sti n g of “ n e g ati v e
i nf o r m ati o n” o n t h e I nt e r n et. B ut r ul e s b a r ri n g c h e ati n g,
h a c ki n g, h a r a s s m e nt, b ull yi n g, a n d t h e li k e r e g ul at e c o n d u ct,
a n d i n a p p r o p ri at e ci r c u m st a n c e s c a n e n c o m p a s s s p e e c h i nt e g r al
t o t h at c o n d u ct.
22

P etiti o n e r a n d s o m e a mi ci a r g u e t h at t h e C o u rt s h o ul d e x p a n d
Ti n k e r b e c a u s e ot h e r wi s e s c h o ol offi ci al s will b e i n t h e u nf ai r
p o siti o n of b ei n g li a bl e b ot h if t h e y f ail t o r e s p o n d a d e q u at el y t o
b ull yi n g o r h a r a s s m e nt, a n d if t h e y vi ol at e t h e Fi r st A m e n d m e nt
i n t h ei r r e s p o n s e. P e t. B r. 3 6. B ut p u bli c s c h o ol s a n d e m pl o y e r s
a r e al r e a d y o bli g at e d t o t a k e a cti o n t o a v oi d di s c ri mi n ati o n, f o r
e x a m pl e, b ut al s o n ot t o t r a n s g r e s s t h e Fi r st A m e n d m e nt ( o r a n y
ot h e r c o n stit uti o n al li mit ati o n) i n d oi n g s o. T h e d o ct ri n e of
q u alifi e d i m m u nit y e n s u r e s t h at n o offi ci al will b e li a bl e a b s e nt
vi ol ati o n of a “ cl e a rl y e st a bli s h e d” c o n stit uti o n al ri g ht. A n d e r s o n
v. C r ei g ht o n , 4 8 3 U. S. 6 3 5 ( 1 9 87) .
23

27

c at e g o r y -b y -c at e g o r y a p p r o a c h t h at e xi sti n g d o ct ri n e
p e r mit s e n s u r e s t h a t s c h o ol s c a n a d d r e s s s p e cifi c
a r e a s of c o n c e r n, i n a t ail o r e d w a y, wit h o ut e x p a n di n g
t h e bl u nt i n st r u m e nt of Ti n k e r.
I I.

P
O
P
P

E TI TI
F
TI
R E C E
RI N CI

O
N
D
P

N
K
E
L

E
E
N
E

R’ S P R O P O S E D E X P A N S I O N
R
IS
N O T
J U S TI FI E D
B Y
T,
A N D
C O N T AI N S
N O
D L I M I T.

P e titi o n e r’ s p r o p o s e d e x p a n si o n of Ti n k e r i s n ot
s u p p o rt e d b y a n y of t h e wi d e -r a n gi n g d o ct ri n e s it cit e s
a n d h a s n o di s c e r ni bl e li mit.
A n d P etiti o n e r’ s
o bj e cti o n t h at c o nfi ni n g Ti n k e r t o t h e s c h o ol
e n vi r o n m e nt i s u n w o r k a bl e i s b eli e d b y t h e f a ct t h at
t h e oth e r “ s c h o ol s p e e c h” c a s e s r e q ui r e d r a wi n g t h e
v e r y s a m e li n e.
A.

T h e P u r p o r t e dl y “ Cl o s el y R el a t e d
D o c t ri n e s ” P e ti ti o n e r I n v o k e s D o
N o t S u p p o r t I t s P r o p o s e d S t a n d a r d.

L a c ki n g a n y s u p p o rt f o r it s p o siti o n i n t h e
s c h o ol -s p e e c h c a s e s t h e m s el v e s, P etiti o n e r t u r n s
i n st e a d t o a h o st of w h at it c all s “ cl o s el y r el at e d
d o ct ri n e s.” P et. B r. 2 3 – 2 6, 1 3 – 1 6. B ut t h o s e d o ct ri n e s
a r e n eit h e r “ cl o s el y r el at e d” n o r s u p p o rti v e of
P etiti o n e r’ s t h e o r y. T h e v e r y f a ct t h at P etiti o n e r f e el s
c o m p ell e d t o i n v o k e s o m a n y d o ct ri n e s n ot i m pli c at e d
h e r e o nl y u n d e r s c o r e s t h e a b s e n c e of s u p p o rt f o r it s
p o siti o n i n t h e “ s c h o ol s p e e c h” c a s e s t h at a ct u all y
s p e a k t o t h e s u bj e ct at h a n d.
P etiti o n e r d e v ot e s m a n y p a g e s t o a hi st o ri c al
r e vi e w of t h e s c o p e of s c h o ol a ut h o rit y t o di s ci pli n e
st u d e nt s. P et. B r. 1 3 – 1 6. B ut n eit h e r B. L. n o r t h e
c o u rt b el o w q u e sti o n t h e s c h o ol’ s a ut h o rit y v el n o n t o
r e g ul at e st u d e nt s’ c o n d u ct o ut si d e t h e s c h o ol, w hi c h i s
28

ulti m at el y a m att e r of st at e l a w. R at h e r, t h e q u e sti o n
i s w h at Fi r st A m e n d m e nt st a n d a r d a p pli e s w h e n a
s c h o ol e x e r ci s e s t h at a ut h o rit y. 2 4
F o r t h e s a m e r e a s o n, t h e d o ct ri n e s g o v e r ni n g
p e r s o n al j u ri s di cti o n , a n d st at e s’ a ut h o rity t o r e g ul at e
o ut -of -st at e a cti vit y , h a s n o r el e v a n c e. T h i s c a s e
c o n c e r n s n ot a ut h o ri t y t o r e g ul at e, b ut w h at Fi r st
A m e n d m e nt st a n d a r d g o v e r n s. 2 5
Ot h e r c a s e s P etiti o n e r r eli e s u p o n a ct u all y
c o nt r a di ct it s p o siti o n. It cit e s G r a y n e d v. Cit y of
R o c kf o r d , 40 8 U. S. 1 0 4 ( 1 9 7 2) , t o s u g g est t h at s c h o ol s
c a n r e g ul at e s p e e c h b e y o n d t h ei r f o u r w all s. P et. B r.
1 8 – 1 9.
B ut G r a y n e d
a p pli e d t r a diti o n a l Fi r st
A m e n d m e nt a n al y si s, n ot Ti n k e r . G r a y n e d, a n a d ult
p r ot e st e r, w a s c h a r g e d wit h vi ol ati n g t w o t o w n
o r di n a n c e s: o n e t h at b a n n e d all pi c k eti n g e x c e pt l a b o r
pi c k eti n g wit hi n 1 5 0 f e et of a s c h o ol, a n d a s e c o n d
o r di n a n c e t h at p r o hi bit e d n oi s e a dj a c e nt t o a s c h o ol
t h at di st u r b e d t h e s c h o ol w hil e it w a s i n s e s si o n.
I n d e e d, n o n e of t h e p r e -Ti n k e r hi st o ri c al c a s e s P etiti o n e r cit e s
e v e n a d d r e s s a s p e e c h cl ai m of a n y ki n d, a n d m o st w e r e d e ci d e d
b ef o r e t h e Fi r st A m e n d m e nt a p pli e d t o t h e st at e s. I n a n y e v e nt,
P etiti o n e r’ s s o u r c e s d o n ot u nif o r ml y s u p p o rt s c h o ol a ut h o rit y t o
r e g ul at e off -c a m p u s a cti vit y a s a g e n e r al m att e r. S e e , e. g. , C. W.
B a r d e e n, T h e N e w Y o r k S c h o ol Offi c e r s H a n d b o o k: A M a n u al of
C o m m o n S c h o o l L a w 1 6 2 ( 9t h e d. 1 9 1 0) ( e x pl ai ni n g t h at i n N e w
Y o r k t h e “ a ut h o rit y of t h e t e a c h e r t o p u ni s h hi s s c h ol a r s e xt e n d s
t o a ct s d o n e i n t h e s c h o ol -r o o m o r pl a y g r o u n d o nl y ; a n d h e h a s n o
l e g al ri g ht t o p u ni s h f o r i m p r o p e r o r di s o r d e rl y c o n d u ct
el s e w h e r e.”).
24

T o t h e e xt e nt t h at
t a k e n o ut of c o nt e xt
a ut h o rit y o v e r off -c a
t h at t h e j u d g m e nt i s
o nl y t h at Ti n k e r
n o n h a r a s si n g a n d n o
25

st r a y l i n e s i n t h e c o u rt of a p p e al s’ o pi ni o n
mi g ht b e r e a d t o d e n y s c h o ol s a n y r e g ul at o r y
m p u s s p e e c h, t h e C o u rt s h o ul d si m pl y cl a rif y
affi r m e d o n t h e u n d e r st a n di n g t h at it h ol d s
d o e s n ot g o v e r n s c h o ol r e g ul ati o n of
n vi ol e nt off -c a m p u s s p e e c h.

29

G r a y n e d di d n ot s a y t h at s c h o ol s c o ul d r e g ul at e
off -c a m p u s s p e e c h b a s e d o n c o nt e nt a s l o n g a s it
c a u s e s s u b st a nti al di s r u pti o n. T o t h e c o nt r a r y, it
i n v ali d at e d t h e a nti -pi c k eti n g o r di n a n c e b e c a u s e it
w a s c o nt e nt -b a s e d .
A n d it u p h el d t h e a nti-n oi s e
o r di n a n c e a s a c o nt e nt -n e ut r al “ti m e, pl a c e, a n d
m a n n e r r e g ul ati o n []” t h at “ gi v e s n o li c e n s e t o p u ni s h
a n y o n e b e c a u s e of w h at h e i s s a yi n g .” G r a y n e d , 4 0 8
U. S. at 1 5 1, 1 2 1. T h e C o u rt cit e d Ti n k e r m e r el y t o
a c k n o wl e d g e t h e st at e’ s i nt e r e st i n p r ot e cti n g t h e
s c h o ol f r o m n oi s e t h at i nt e rf e r e s wit h t e a c hi n g. T h e r e
i s n ot hi n g u ni q u e a b o ut t h at i nt e r e st; t h e s a m e
a n al y si s w o ul d h a v e a p pli e d o ut si d e a h o s pit al o r i n a
r e si d e nti al a r e a. S e e, e. g. , F ri s b y v. S c h ult z , 4 8 7 U.S .
4 7 4 ( 1 9 8 8) ( u p h ol di n g c o nt e nt-n e ut r al b a n o n
pi c k eti n g i n f r o nt of r e si d e nti al h o m e t o p r e s e r v e ri g ht
t o b e l et al o n e). I n a n y e v e nt, G r a y n e d i n v ol v e d
r e g ul ati o n of s p e e c h a cti vit y a dj a c e nt t o s c h o ol
g r o u n d s d u ri n g s c h o ol h o u r s, n ot r e g ul ati o n of
st u d e nt s’ — o r a n y o n e’ s — s p e e c h a n y w h e r e a n yti m e.
N o r d o t h e p u bli c e m pl o y e e s p e e c h c a s e s
s u p p o rt P etiti o n e r’ s p r o p o s e d e x p a n si o n of Ti n k e r .
P etiti o n e r m ai nt ai n s t h at b e c a u s e t e a c h e r s c a n b e
p e n ali z e d f o r t h ei r s p e e c h off c a m p u s, it w o ul d b e
a n o m al o u s t o t r e at st u d e nt s diff e r e ntl y. P et. B r. 2 3 –
2 4. B ut t hi s C o u rt h a s al w a y s t r e a t e d t h e s p e e c h
ri g ht s of p u bli c e m pl o y e e s, i n cl u di n g t e a c h e r s,
diff e r e ntl y f r o m t h o s e of ot h e r s, i n cl u di n g p u bli c s c h o ol st u d e nt s. “ T h e g o v e r n m e nt a s e m pl o y e r i n d e e d
h a s f a r b r o a d e r p o w e r s t h a n d o e s t h e g o v e r n m e nt a s
s o v e r ei g n.” G a r c etti v . C e b all o s , 5 4 7 U. S. 4 1 0, 4 1 8
( 2 0 0 6) ( cit ati o n o mitt e d).
U n d e r G a r c etti , t e a c h e r s c a n b e di s ci pli n e d f o r
vi rt u all y a n yt hi n g t h e y s a y i n t h e cl a s s r o o m. I d. at
4 2 1 (“[ W] h e n p u bli c e m pl o y e e s m a k e st at e m e nt s
30

p u r s u a nt t o t h ei r offi ci al d uti e s, t h e e m pl o y e e s a r e n ot
s p e a ki n g a s citi z e n s f o r Fi r st A m e n d m e nt p u r p o s e s,
a n d t h e C o n stit uti o n d o e s n ot i n s ul at e t h ei r
c o m m u ni c ati o n s
fr o m
e m pl o y e r
di s ci pli n e.”).
St u d e nt s, b y c o nt r a st, h a v e Fi r st A m e n d m e nt ri g ht s
i n t h e cl a s s r o o m, e v e n w h e n t h e y a r e s p e a ki n g a s
st u d e nt s. Ti n k e r , 3 9 3 U. S. at 5 1 3.
St u d e nt s a n d t e a c h e r s al s o h a v e diff e r e nt
s p e e c h ri g ht s o ut si d e t h e s c h o ol. W h e n p u bli c -s c h o ol
t e a c h e r s s p e a k a s citi z e n s, t h e y a r e p r ot e ct e d f r o m
e m pl o y m e nt c o n s e q u e n c e s o nl y i f t h e s p e e c h i s o n
m att e r s of p u bli c c o n c e r n , a n d e v e n t h e n, o nl y w h e n
t h e e m pl o y e r’ s i nt e r e st d o e s n ot o ut w ei g h t h at of t h e
s p e a k e r . Pi c k e ri n g v. B d . of E d u c. , 3 9 1 U. S. 5 6 3, 5 7 27 3 ( 1 9 6 8).
Y et n o n e of t hi s C o u rt’ s s c h o ol-s p e e c h
d e ci si o n s h a v e li mit e d y o u n g p e o pl e’ s p r ot e cti o n s t o
m att e r s of p u bli c c o n c e r n, eit h e r i n si d e o r o ut si d e t h e
s c h o ol e n vi r o n m e nt. 2 6
P etiti o n e r’ s i n v o c ati o n of t h e
milit a r y’ s
a ut h o rit y t o di s ci pli n e e nli st e d p e r s o n n el o nl y r e v e al s
t h e w e a k n e s s of it s a r g u m e nt. A s t hi s C o u rt h a s

N o r s h o ul d t h e y. “ M o st of w h at w e s a y t o o n e a n ot h e r l a c k s
r eli gi o u s, p oliti c al, s ci e ntifi c, e d u c ati o n al, j o u r n ali sti c, hi st o ri c al,
o r a rti sti c v al u e (l et al o n e s e ri o u s v a l u e), but it i s still s h elt e r e d
f r o m g o v e r n m e nt r e g ul ati o n.” St e v e n s , 5 5 9 U. S. at 4 7 9 (i nt e r n al
q u ot ati o n m a r k s o mitt e d). It w o ul d b e w h oll y u n r e ali sti c t o
e x p e ct c hil d r e n t o d r a w fi n e d i sti n cti o n s a s t o w h et h e r t h e y a r e
s p e a ki n g o n a m att e r of p u bli c c o n c e r n. A n d if s u c h a st a n d a r d
w e r e a p pli e d t o st u d e nt s, m att e r s r el ati n g t o s c h o ol, t h e m o st
i m p o rt a nt p u bli c i n stit u ti o n i n t h ei r li v e s, i n w hi c h t h e y a r e
r e q ui r e d t o s p e n d m o st of t h ei r w a ki n g h o u r s, w o ul d c e rt ai nl y b e
of p u bli c c o n c e r n.
26

31

r e p e at e dl y e x pl ai n e d, t h e milit a r y d e m a n d s di s ci pli n e
u nli k e a n yt hi n g i n ci vili a n s o ci et y. 2 7
B.

P e ti ti o n e r’ s P r o p o s e d R ul e P r o vi d e s
N o Li mi t t o Ti n k e r ’ s R e a c h a n d Will
R e s ul t
in
B ot h
C o nt e nt
and
Vi e w p oi n t Di s c ri mi n a ti o n.

P etiti o n e r m ai nt ai n s t h at it s d o ct ri n e h a s t w o
i m p o rt a nt li mit s: It a p pli e s o nl y t o s p e e c h “ di r e ct e d”
at t h e s c h o ol; a n d it will n ot p e r mit vi e w p oi nt
di s c ri mi n ati o n. N eit h e r i s a n y li mit at all.
i.

P e ti ti o n e r’ s P r o p o s e d Li mi t a ti o n t o
S p e e c h “ Di r e c t e d ” a t t h e S c h o ol I s
N o Li mi t a t All.

P etiti o n e r c o nt e n d s t h at Ti n k e r s h o ul d e xt e n d
“ o nl y”
to
off-c a m p u s
s p e ec h
t h at
st u d e nt s
“i nt e nti o n all y di r e ct[] at t h e s c h o ol e n vi r o n m e nt” a n d
t h at “f o r e s e e a bl y r e a c h[ e s] t h at e n vi r o n m e nt.” P et. B r.
2 7; i d. 1 1 ( s a m e). A c c o r di n g t o P etiti o n e r, “ w h e n
st u d e nt s di r e ct s p e e c h at t h e s c h o ol c o m m u nit y — f o r
e x a m pl e, b y r ef e r ri n g t o s c h o ol aff ai r s o r s e n di n g
s p e e c h di r e ctl y t o cl a s s m at e s — t h e f a ct t h at st u d e nt s
p r e s s e d ‘ s e n d’ off -c a m p u s s h o ul d n ot b e di s p o siti v e.”
I d. 2 8 ( e m p h a si s a d d e d).
T h u s, P etiti o n e r’ s t e st
a p pli e s Ti n k e r t o b ot h e v e r yt hi n g s ai d t o a n ot h e r
st u d e nt a n d e v e r yt hi n g s ai d a b o ut s c h o ol t h a t mi g ht
r e a c h t h e s c h o ol. T hi s i s n o r e st ri cti o n at all.

S e e, e. g. , P a r k e r v. L e v y , 4 1 7 U. S. 7 3 3, 7 4 3 ( 1 9 7 4) (“[ T] h e
milit a r y i s, b y n e c e s sit y, a s p e ci ali z e d s o ci et y s e p a r at e f r o m
ci vili a n s o ci et y . . . . T h e diff e r e n c e s b et w e e n t h e milit a r y a n d
ci vili a n c o m m u niti e s r e s ult f r o m t h e f a ct t h at ‘it i s t h e p ri m a r y
b u si n e s s of a r mi e s a n d n a vi e s t o fi g ht o r r e a d y t o fi g ht w a r s
s h o ul d t h e o c c a si o n a ri s e’” ( q u oti n g U nit e d St at e s e x r el. T ot h v.
Q u a rl e s , 3 5 0 U. S. 1 1, 1 7 ( 1 9 5 5)).
27

32

T h e b r e a dt h of P etiti o n e r’ s p r o p o s e d st a n d a r d
f o r w h e n Ti n k e r a p pli e s i s r e v e al e d b y it s a p pli c ati o n
h e r e. B. L. p o st e d h e r m e s s a g e o n t h e w e e k e n d o n
S n a p c h at, a n i nt e nti o n all y e p h e m e r al m e di u m , t o a
s el e ct g r o u p of “f ri e n d s” w h o o pt e d t o r e c ei v e t h e m.
S h e di d n ot s e n d it t o t h e s c h o ol o r t o a n y s c h o ol
w e b sit e o r f o r u m. T h e m e s s a g e r e a c h e d t h e s c h o ol
o nl y t h r o u g h t h e i n d e p e n d e nt a cti o n s of a t hi r d p a rt y,
n ot o n e of B. L.’ s S n a p c h at “f ri e n d s .” Y et P e titi o n e r
c o nt e n d s t h at b e c a u s e s o m e i nt e n d e d r e ci pi e nt s w e r e
cl a s s m at e s, a n d b e c a u s e s h e s ai d “ c h e e r” a n d “ s c h o ol,”
t h e m e s s a g e w a s “ di r e ct e d” at t h e s c h o ol. I d. 3 0 – 3 1.
If m e r el y s p e a ki n g t o cl a s s m at e s o r t al ki n g
a b o ut s o m et hi n g t h at h a p p e n e d at s c h o ol i s s uffi ci e nt
t o c o n stit ut e “ di r e cti n g” s p e e c h at t h e “ s c h o ol
e n vi r o n m e nt,” t h e v a st m aj o rit y of y o u n g p e o pl e’ s
c o m m u ni c ati o n s
w o ul d b e s u bj e ct t o Ti n k e r —
i n cl u di n g m a n y of t h e “ o r di n a r y c o n v e r s ati o n s wit h
f a mil y o r n ei g h b o r s” t h at P etiti o n e r i n si st s s ho ul d n ot
b e i n cl u d e d. I d. 2 8. U n d e r P etiti o n e r’ s t e st, t h e o nl y
off -c a m p u s s p e e c h cl e a rl y n ot s u bj e ct t o r e g ul ati o n i s
s p e e c h s h a r e d wit h n o o n e. I d. at 2 9 ( c r e ati n g a
“ s e xu all y e x pli cit a v at a r” w o ul d n ot b e r e a c h a bl e “if
t h e st u d e nt d o e s n ot s h a r e t h e m wit h a n y o n e”). B ut
t h e f r e e d o m of s p e e c h i s n ot c o nfi n e d t o w h at o n e
w rit e s i n o n e’ s di a r y; t h e Fi r st A m e n d m e nt p r ot e ct s
t h e e x c h a n g e of i d e a s.
P etiti o n e r’ s t h e o r y w o ul d e n c o m p a s s vi rt u all y
a n yt hi n g a y o u n g p e r s o n s a y s o nli n e, s o l o n g a s it i s
a c c e s s i bl e b y a n ot h e r st u d e nt. B y 2 0 1 8, n e a rl y “ 9 5 %
of t e e n s r e p o rt[ e d] t h e y h a[ d] a s m a rt p h o n e o r a c c e s s

33

t o o n e” a n d “ 4 5 % of t e e n s . . . s a[i d] t h e y a r e o nli n e o n
a n e a r -c o n st a nt b a si s.” 2 8
P etiti o n e r’ s a d diti o n al r e q ui r e m e nt t h at it
m u st b e “ r e a s o n a bl y f o r e s e e a bl e” t h at t h e s p e e c h will
r e a c h t h e s c h o ol i s al s o eff e cti v el y m e a ni n gl e s s,
p a rti c ul a rl y i n t h e I nt e r n et a g e. T hi s C o u rt h a s h el d
t h at e v e r y o n e a s s u m e s t h e ri s k t h at a n yt hi n g s ai d t o
a n ot h e r p e r s o n will b e c o m m u ni c at e d b y t h e r e ci pi e nt
t o ot h e r s. U nit e d St at e s v. W hit e , 4 0 1 U. S. 7 4 5, 7 4 9,
7 5 1 ( 1 9 7 1) . A n d “[i]f o n e t a k e s a b r o a d e n o u g h vi e w,
all c o n s e q u e n c e s of a n e gli g e nt a ct , n o m att e r h o w f a r
r e m o v e d i n ti m e o r s p a c e,
m a y b e f o r e s e e n.
C o n diti o ni n g li a bilit y o n f o r e s e e a bilit y, t h e r ef o r e, i s
h a r dl y a c o n diti o n at all.”
C o n s ol . R ail C o r p. v.
G ott s h al , 5 1 2 U. S. 5 3 2, 5 5 3 ( 1 9 9 4).
P etiti o n e r’ s
a r g u m e nt t h at it s “ r e a s o n a bl y f o r e s e e a bl e” t e st w o ul d
b e s ati sfi e d h e r e — w h e r e B. L.’ s s p e e c h r e a c h e d t h e
s c h o ol t h r o u g h t h e i n d e p e n d e nt a ct of a t hi r d p a r t y,
wit h w h o m s h e di d n ot s h a r e h e r S n a p a n d w h o a ct e d
wit h o ut
h e r c o n s e nt — hi g hli g ht s t h e p r o bl e m.
A c c o r di n gl y, t hi s c o n diti o n d o e s n ot li mit t h e s c o p e of
s p e e c h s c h o ol s c o ul d p u ni s h f o r it s c o nt e nt.
ii.

P e ti ti o n e r’ s
A r g u m e nt t h at
it s
A p p r o a c h W o ul d N o t C o u n t e n a n c e
Vi e w p oi n t Di s c ri mi n a ti o n C a n n o t
Be
S q u are d
w it h
Ti n k e r
or
P e ti ti o n e r’ s A c ti o n s H e r e.

P etiti o n e r’ s o nl y ot h e r all e g e d r e st r ai nt o n
s c h o ol o v e r r e a c h i s al s o ill u s o r y. P etiti o n e r m ai nt ai n s
t h at vi e w p oi nt di s c ri mi n ati o n i s n ot p e r mitt e d u n d e r
M o ni c a A n d e r s o n & Ji n gji n g Ji a n g, T e e n s, S o ci al M e di a &
T e c h n ol o g y 2 0 1 8 , P e w R e s. ( M a y 3 1, 2 0 1 8), htt p s:// w w w. p e w
r e s e a r c h. o r g/i nt e r n et/ 2 0 1 8/ 0 5/ 3 1/t e e n s -s o ci al -m e di a -t e c h n ol o g y 2 0 1 8/ .
28

34

Ti n k e r . P et. B r. 2 9. B ut all t h r e e of t h e r ul e s it cit e d
t o j u stif y B. L’ s s u s p e n si o n f r o m t h e t e a m a r e e x pli citl y
vi e w p oi nt -b a s e d.
O n e f o r bi d s t h e p u bli c ati o n of
“n e g ati v e i nf o r m ati o n” a b o ut c h e e rl e a di n g. J. A. 1 8.
A n ot h e r p r o hi bit s “t a r ni s h [i n g]” t h e s c h o ol’ s i m a g e.
I d. 5 6.
A t hi r d d e m a n d s t h at st u d e nt s e x p r e s s
“ r es p e ct f o r y o u r s c h o ol.” I d. 1 7. U n d e r t h e s e r ul e s,
s p e e c h t h at c o m m u ni c at e d p o siti v e i nf o r m a ti o n a b o ut
c h e e rl e a di n g, t h at b u r ni s h e d t h e s c h o ol’ s r e p ut ati o n,
o r t h at s h o w e d r e s p e ct r at h e r t h a n di s r e s p e ct f o r t h e
s c h o ol w o ul d n ot t ri g g e r p u ni s h m e nt. T h a t i s cl a s si c
vi e w p oi nt di s c ri mi n ati o n. M at al v. T a m , 1 3 7 S. Ct.
1 7 4 4, 1 7 6 6 ( 2 0 1 7) ( K e n n e d y, J., c o n c u r ri n g)
(“ m a n d ati n g p o siti vit y” i s vi e w p oi nt di s c ri mi n ati o n).
P etiti o n e r cl ai m s t h at u n d e r Ti n k e r , “ s c h o ol s
m u st t a r g et t h e di s r u pti o n, n ot t h e vi e w p oi nt.”
P et. B r. 2 9. B ut t h e “ di s r u pti o n” it n o w s a y s j u stifi e d
B. L.’ s e x p ul si o n — t h e f a ct t h at s o m e ot h e r st u d e nt s
w e r e “ vi si bl y u p s et” — w a s pl ai nl y c a u s e d b y t h e vi e w s
s h e e x p r e s s e d. H a d h e r S n a p s ai d “ C h e e r i s fu c ki n g
a w e s o m e,” n o “ di s r u pti o n” w o ul d h a v e o c c u r r e d. T h at,
a g ai n, i s vi e w p oi nt di s c ri mi n ati o n.
M o r e g e n e r all y, Ti n k e r ’ s di s r u pti o n st a n d a r d
all o w s s c h o ol s t o e nf o r c e a “ h e c kl e r’ s v et o,” sil e n ci n g
s p e e c h p r e ci s el y b e c a u s e t h e vi e w p oi nt e x p r e s s e d
off e n d s ot h e r s s uffi ci e ntl y t o c a u s e “ s u b st a nti al
di s r u pti o n.”
T h u s, i n P etiti o n e r’ s vi e w, Ti n k e r, a n d it s
bl e s si n g of t h e h e c kl e r ’s v et o, w o ul d a p pl y t o
e v e r yt hi n g a y o u n g p e r s o n s a y s t o a cl a s s m at e, o r
a b o u t s c h o ol. It w o ul d r e d u c e y o u n g p e o pl e’ s f r e e d o m
of e x p r e s si o n e v e r y w h e r e t o t h e li mit e d f r e e d o m t h e y
h a v e i n s c h o ol.

35

C.

T
S
C
“

h e Li n e D r a w n i n Ti n k e r I s t h e
a m e Li n e t hi s C o u r t a n d L o w e r
o u r t s H a v e R o u ti n el y D r a w n i n
S c h o ol S p e e c h ” C a s e s.

P etiti o n e r cl ai m s t h at d r a wi n g a li n e b et w e e n
s p e e c h i n si d e a n d o ut si d e t h e s c h o ol e n vi r o n m e nt i s
u n m a n a g e a bl e a n d a r bit r a r y. P et. B r. 4 5 – 4 6. B ut t h at
li n e h a s b e e n e s s e nti al t o all of t h e C o u rt’ s “ s c h o ol
s p e e c h” c a s e s, a n d s c h o ol s, st u d e nt s, a n d c o u rt s a r e
t h e r ef o r e al r e a d y r e q ui r e d t o d r a w it.
W h et h e r s p e e c h o c c u r s wit hi n o r o ut si d e t h e
s c h o ol e n vi r o n m e nt
al r e a d y
d et e r mi n e s
w h at
st a n d a r d a p pli e s. M o r s e, 5 5 1 U. S. at 3 9 6 – 9 7. S c h o ol s
c a n p u ni s h v ul g a rit y a n d p r o -d r u g s p e e c h wit hi n t h e
s c h o ol e n vi r o n m e nt, b ut n ot o ut si d e. I d. at 3 9 7.
I n d e e d, P etiti o n e r c o n c e d e s a s m u c h. P et. R e pl y i n
S u p p . of C e rt . 1 1 ( citi n g F r a s e r , K u hl m ei e r , a n d M o r s e
a n d c o n c e di n g “ s c h o ol s’ i n a bilit y t o r el y o n ot h e r Fi r st
A m e n d m e nt d o ct ri n e s t o a d d r e s s di s r u pti v e off c a m p u s s p e e c h”). T h u s, t h e v e r y i n q ui r y P etiti o n e r
q u e sti o n s m u st al r e a d y b e u n d e rt a k e n.
T h e li n e i s n ot diffi c ult t o d r a w i n t h e v a st
m aj o rit y of c a s e s. T h e s c h o ol e n vi r o n m e nt i n cl u d e s all
ti m e s w h e n t h e s c h o ol i s r e s p o n si bl e f o r t h e st u d e nt ,
i n cl u di n g o n c a m p u s o r it s i m m e di at e e n vi r o n s d u ri n g
s c h o ol h o u r s, at a s c h o ol -s p o n s o r e d o r -s u p e r vi s e d
e v e nt, o n a s c h o ol -s p o n s o r e d w e b sit e, w hil e e n r o ut e
t o o r f r o m s c h o ol, o r e v e n f r o m st u d e nt s’ o w n h o m e s if
t h e y a r e e n g a g e d i n s c h o ol -s p o n s o r e d r e m ot e l e a r ni n g
o r u si n g a s c h o ol l a pt o p i s s u e d f o r s c h o ol w o r k. It d o e s
n ot i n cl u d e “ s p e e c h t h at i s o ut si d e s c h o ol -o w n e d, o p e r at e d, o r -s u p e r vi s e d c h a n n el s a n d t h at i s n ot
r e a s o n a bl y i nt e r p r et e d a s b e a ri n g t h e s c h o ol’ s
i m p ri m at u r.” P et. A p p. 3 1 a.
36

T h u s, a st u d e nt o n a s c h o ol pl a y g r o u n d o p e n t o
t h e p u bli c o n t h e w e e k e n d b ut n ot s u p e r v i s e d b y t h e
s c h o ol w o ul d e nj o y t h e s a m e s p e e c h ri g ht s a s a n y o n e
el s e o n t h at pl a y g r o u n d. T h e s a m e i s t r u e f o r st u d e nt s
att e n di n g aft e r -h o u r s c o m m u nit y e v e nt s at t h e s c h o ol.
B y c o nt r a st, w h at st u d e nt s d o a n d s a y w hil e
t h e y a r e u n d e r s c h o ol s u p e r vi si o n i s s u bj e ct t o Ti n k e r ,
e v e n if t h e s c h o ol h a s a n o p e n c a m p u s a n d all o w s
st u d e nt s t o w al k d o w n t h e st r e et f o r l u n c h at a p a r k
o r r e st a u r a nt. Si mil a rl y, a c all f r o m h o m e t o s c h o ol
p e r s o n n el at s c h o ol, a n e m ail f r o m a p e r s o n al s e r v e r
t o a s c h o ol s e r v e r, a cti vi ti e s t a k e n f o r s c h o ol c r e dit,
a n d t h e p u bli c si d e w al k a dj a c e nt t o t h e s c h o ol d u ri n g
s c h o ol h o u r s a n d i m m e di at el y b ef o r e a n d aft e r s c h o ol
a r e all s u bj e ct t o Ti n k e r . O n t h e ot h er h a n d, u nl e s s
st u d e nt s a r e o n t h ei r w a y t o s c h o ol o r o n t h ei r w a y
h o m e, t h e y d o n ot l o s e t h ei r Fi r st A m e n d m e nt ri g ht s
j u st b e c a u s e t h e y h a p p e n t o b e i n a “ s c h o ol z o n e.”
P etiti o n e r a s k s w h y it s h o ul d m a k e a diff e r e n c e
if a st u d e nt s e n d s a S n a p f r o m h e r p h on e at s c h o ol o r
o n t h e w e e k e n d, if it h a s t h e s a m e eff e ct. P et. B r. 4 4.
B ut t h e Fi r st A m e n d m e nt i s n ot d et e r mi n e d b y eff e ct.
A p r o -d r u g m e s s a g e o r a l e w d s p e e c h t o cl a s s m at e s
o ut si d e of s c h o ol at a p ri v at e p a rt y mi g ht h a v e t h e
s a m e eff e ct a s t h e s p e e c h i n M o r s e a n d F r a s e r , y et t h e
s c h o ol c o ul d n ot r e g ul at e t h e m a s s c h o ol s p e e c h. T h e
r e a s o n i s t w o -f ol d: T h e s c h o ol n e e d s t h e a ut h o rit y t o
r e s p o n d i m m e di at el y w h e n s p e e c h o c c u r s w hil e
st u d e nt s a r e u n d e r it s s u p e r vi si o n a n d c a r e; a n d t h e
e xt r a o r di n a r y p o w e r of s c h o ol s t o r e g ul at e t h e c o nt e nt
of st u d e nt s’ s p e e c h o n c a m p u s i s a c c e pt a bl e p r e ci s el y
b e c a u s e y o u n g p e o pl e o ut si d e t h at e n vi r o n m e nt a r e
f r e e of s u c h c e n s o r s hi p. S e e s u p r a P oi nt I. B. T h e ri g ht
a n s w e r i n Fi r st A m e n d m e nt c a s e s i s “ n ot si m pl y
[ w hic h e v e r] r o ut e i s e a si e r. . . . t h e p ri m e o bj e cti v e of
37

t h e Fi r st A m e n d m e nt i s n ot effi ci e n c y” — it i s
p r ot e cti o n of t h e ri g ht t o f r e e d o m of s p e e c h. M c C ull e n ,
5 7 3 U. S. at 4 9 5.
I I I.

T
M
S
S
B
P
I

H E
U NI T E D
S T A T ES
C O R R E C T L Y
AI N T AI N S T H A T T H E V A S T A R R A Y O F
T U D E N T
S P E E C H
O U T SI D E
T H E
C H O O L E N VI R O N M E N T S H O U L D N O T
E S U B J E C T E D T O TI N K E R , B U T I T S
R O P OS E D
A P P R O A C H
IS
N C O N SI S T E N T W I T H T H A T P RI N CI P L E .

T h e U nit e d St at e s a g r e e s wit h B. L. t h at “t h e
v a st a r r a y of d a y -t o-d a y off -c a m p u s c o m m u ni c ati o n b y
st u d e nt s i s b e y o n d t h e l e giti m at e r e a c h of s c h o ol
di s ci pli n e.” U. S. B r. 2 0; i d. 7. I n p a rti c ul a r, t h e U nit e d
St at e s r ej e ct s t h e n oti o n t h at st u d e nt s c a n b e
p u ni s h e d f o r off -c a m p u s s p e e c h b e c a u s e it eli cit s a
h o stil e r e a cti o n f r o m li st e n e r s i n t h e s c h o ol: “[ I]f a
st u d e nt d eli v e r s a fi e r y r eli gi o u s s e r m o n o r a
c o nt r o v e r si al p oliti c al s p e e c h o v e r t h e w e e k e n d, it
al m o st c e rt ai nl y w o ul d b e p r ot e ct e d u n d e r t h e Fi r st
A m e n d m e nt n o m att e r h o w di s r u pti v e it s li n g e ri n g
eff e ct s mi g ht p r o v e t o b e w h e n t h e s t u d e nt r et u r n s t o
s c h o ol .” I d . 2 0 ( e m p h a si s a d d e d). T h u s, t h e U nit e d
St at e s c o r r e ctl y r ej e ct s P etiti o n e r’ s a p p r o a c h.
I n st e a d, t h e U nit e d St at e s s u b mit s t h at t h e r e
a r e “ s o m e n a r r o w c at e g o ri e s of st u d e nt s p e e c h t h at
o c c u r s off c a m p u s [t h at] n e v e rt h el e s s a r e p r o p e rl y
r e g a r d e d a s ‘ s c h o ol s p e e c h’ p ot e nti all y s u bj e ct t o
di s ci pli n e b y s c h o ol offi ci al s.” I d. It i d e ntifi e s t h r e e
s u c h c at e g o ri e s: ( 1) t h r e a t s t o t h e s c h o ol c o m m u nit y;
( 2) s p e e c h t h at “i nt e nti o n all y t a r g et s s p e cifi c
i n di vi d u al s o r g r o u p s i n t h e s ch o ol c o m m u nit y; ” a n d
( 3) s p e e c h t h at “i nt e nti o n all y t a r g et s s p e cifi c s c h o ol
f u n cti o n s o r p r o g r a m s r e g a r di n g m att e r s e s s e nti al t o
38

o r i n h e r e nt i n t h e f u n cti o n s o r p r o g r a m s t h e m s el v e s.”
I d. 7.
W e a g r e e t h at s c h o ol s c a n r e g ul at e t h e fi r st
c at e g o r y of off -c a m p u s s p e e c h i n a p p r o p ri at e
ci r c u m st a n c e s. T h e s a m e i s t r u e wit h r e s p e ct t o t h e
s e c o n d c at e g o r y if it i s p r o p e rl y li mit e d t o h a r a s s m e nt
a n d b ull yi n g. 2 9 O u r r ati o n al e f o r t h at c o n cl u si o n i s
diff e r e nt, h o w e v e r:
O r di n a r y Fi r st A m e n d m e nt
st a n d a r d s, a dj u st e d f o r y o ut h a n d c o nt e xt, al r e a d y
p e r mit s c h o ol s t o r e g ul at e h a r a s s m e nt a n d b ull yi n g,
i n cl u di n g w h e n t h e y a r e c a r ri e d o ut b y s p e e c h. S u p r a
P oi nt I. E.
B ut t h e r e a s o n f o r t r e ati n g t h e s e t w o
c at e g o ri e s di sti n ctl y m att e r s l e s s t h a n o u r a g r e e m e nt
o n t h e b ott o m li n e t h at off-c a m p u s h a r a s s m e nt,
b ull yi n g, a n d t h r e at s of vi ol e n c e a r e r e g ul a bl e wit h o ut
e xt e n di n g Ti n k e r t o all off -c a m p u s s p e e c h.
And
b e c a u s e t h e s p e e c h at i s s u e i n t hi s c a s e i s n eit h e r
t h r e at e ni n g n o r h a r a s si n g, t h e C o u rt c a n r e s e r v e t h e
q u e sti o n of w hi c h of t h e t w o e x pl a n ati o n s i s p r ef e r a bl e
o r h o w p r e ci s el y t h e c at e g o ri e s s h o ul d b e d efi n e d. 3 0

T h e U nit e d St at e s’ s e c o n d c at e g o r y i s f o r m ul at e d v e r y b r o a dl y,
b ut t h e p ri n ci p al e x a m pl e s it gi v e s a r e h a r a s s m e nt a n d b ull yi n g.
U .S . B r. 2 4 – 2 5. If s o li mit e d, t h e c at e g o r y w o ul d r o u g hl y m at c h
w h at w e b eli e v e t h e Fi r st A m e n d m e nt p e r mit s. B ut if t h e U nit e d
St at e s m e a n s t h at s c h o ol s c a n r e g ul at e a n y s p e e c h t h at o n e
st u d e nt di r e ct s at a n ot h e r, it s s e c o n d c at e g o r y i s f a r t o o s w e e pi n g
a n d w o ul d s e e m al m o st a s b r o a d a s P etiti o n e r’ s t e st, w hi c h t h e
U nit e d St at e s r ej e ct s.
29

T h e U nit e d St at e s a r g u e s t h at s p e e c h i n it s t h r e e c at e g o ri e s i s
s u bj e ct t o r e g ul ati o n t o t h e s a m e e xt e nt a s a n y ot h e r “ s c h o ol
s p e e c h.” U. S. B r. 8, 2 9. O n t hi s vi e w, s u c h off -c a m p u s s p e e c h
c o ul d b e r e g ul at e d if it w e r e di s r u pti v e, Ti n k e r , 3 9 3 U. S. at 5 1 3 ;
l e w d, F r a s e r , 4 7 8 U. S. at 6 8 5 ; a d v o c at e d d r u g l e g ali z ati o n, M o r s e ,
5 5 1 U. S. at 4 0 1 ; o r w e r e m e r el y d e e m e d i n a p p r o p ri at e f r o m a
c u r ri c ul a r st a n d p oi nt, K u hl m ei e r , 4 8 4 U. S. at 2 7 1 .
T h at
30

39

B ut w e p a rt w a y s wit h t h e U nit e d St at e s w h e n
it c o m e s t o t h e t hi r d c at e g o r y, w hi c h w o ul d e n c o m p a s s
all st u d e nt s p e e c h t h at “i nt e nti o n all y t a r g et s s p e cifi c
s c h o ol f u n cti o n s o r p r o g r a m s r e g a r di n g m att e r s
e s s e nti al t o o r i n h e r e nt i n t h e f u n cti o n s o r p r o g r a m s
t h e m s el v e s.” 3 1 U .S . B r. 7, 2 4. T h at cl a s sifi c ati o n i s
b o u n dl e s s a n d e nti r el y u n m o o r e d f r o m a n y e xi sti n g
Fi r st A m e n d m e nt c at e g o r y. It w o ul d gi v e s c h o ol s t h e
v e r y a ut h o rit y t o s u p p r e s s o ff c a m p u s st u d e nt s p e e c h
t h at t h e U nit e d St at e s el s e w h e r e r ej e ct s. A s c h o ol
t h at m ai nt ai n e d, f o r e x a m pl e, t h at “ c o h e si o n” a n d
“ m o r al e” w e r e e s s e nti al t o a s c h o ol p r o g r a m c o ul d
p r o hi bit all c riti ci s m of t h at p r o g r a m, e v e n t h e
r e p o rti n g of a t e a c h e r, c o a c h, o r a d mi ni st r at o r f o r
a b u s e, di s c ri mi n ati o n, h a r a s s m e nt, o r si m pl y f o r
b ei n g i n eff e ct u al. S e e, e. g. , L o w e r y , 4 9 7 F. 3 d at 5 8 5,
5 9 3 . T h e c hilli n g eff e ct w o ul d b e p al p a bl e. S e e J uli et
M a c u r, At Wi s c o n si n Hi g h S c h o ol, A c c u s ati o n s of B o d y
S h a mi n g at a C h e e rl e a di n g B a n q u et , N. Y. Ti m e s ( F e b.
1 9, 2 0 1 9) ( st u d e nt c h e e rl e a d e r w h o s p o k e t o m e di a
a b o ut c h e e rl e a di n g c o a c h di st ri b uti n g “ Bi g B o o b i e
a w a r d f o r t h e gi rl wit h t h e bi g g e st b r e a st s” a n d “ Bi g
B o ot y a w a r d” r e q u e st e d h e r n a m e n ot b e m a d e p u bli c
i n t h e a rti cl e “ o ut of f e a r of r et ri b uti o n f r o m t h e
c o a c h e s”). A n y c riti ci s m c a n b e s ai d t o u n d e r mi n e
“t e a m c o h e si o n o r r e s p e ct f o r t h e a ut h o r it y of t h e
a p p r o a c h di r e ctl y c o nt r a di ct s w h at t h e C o u rt it s elf h a s s ai d
a b o ut t h e li mit s of it s s c h o ol -s p e e c h c a s e s. S e e s u p r a P oi nt I. B.
W hil e w e a g r e e t h at o n e f o r m of s p e e c h t h e U nit e d St at e s p ut s
i n t h e t hi r d c at e g o r y— ai di n g a n d a b etti n g vi ol ati o n of s c h o ol
r ul e s — i s s u bj e ct t o r e g ul ati o n, t h at i s b e c a u s e ai di n g a n d
a b etti n g c a n b e r e g ul at e d u n d e r o r di n a r y Fi r st A m e n d m e nt
st a n d a r d s, a n d t h o s e st a n d a r d s c a n b e a dj u st e d t o r e a c h st u d e nt s
w h o ai d a n d a b et vi ol ati o n s of s c h o ol c o n d u ct r ul e s — n ot b e c a u s e
t h e s p e e c h s o m e h o w b e c o m e s “ s c h o ol s p e e c h” t r e at e d i d e nti c all y
t o s p e e c h utt e r e d o n c a m p u s. S u p r a P oi nt I. E.
31

40

c o a c h.” Alt h o u g h s u c h c riti ci s m m a y b e p r o s c ri b e d o n
t h e pl a yi n g fi el d, it c a n n ot b e p r o hi bit e d e v e r y w h e r e ;
s c h o ol offi ci al s m a y n ot b e i n s ul at e d f r o m all r e p r o a c h
b y st u d e nt s i n p u bli c d e b at e.
T h e U nit e d St at e s’ t hi r d c at e g o r y e s s e nti all y
r e s u r r e ct s t h e a r g u m e nt t h e U nit e d St at e s a d v a n c e d
i n M o r s e t h at “t h e Fi r st A m e n d m e nt p e r mit s p u bli c
s c h o ol offi ci al s t o c e n s o r a n y st u d e nt s p e e c h t h at
i nt e rf e r e s wit h a s c h o ol’ s ‘ e d u c ati o n al mi s si o n.’”
M o r s e , 5 5 1 U. S. at 4 2 3 ( Alit o, J., c o n c u r ri n g). T h e
C o u rt di d n ot e n d o r s e t h at b r o a d a r g u m e nt f o r
r e g ul ati o n of s p e e c h i n s c h o ol t h e n a n d it c e rt ai nl y
s h o ul d n ot d o s o f o r s p e e c h o ut si d e s c h o ol n o w, f o r t h e
r e a s o n J u sti c e Alit o i d e ntifi e d: It “ c a n e a sil y b e
m a ni p ul at e d i n d a n g e r o u s w a y s” b y s c h o ol offi ci al s.
I d.
T h e U nit e d St at e s a r g u e s t h at s u c h c e n s o r s hi p
s h o ul d b e p e r mi s si bl e i n e xt r a c u r ri c ul a r a cti viti e s
b e c a u s e st u d e nt s c h o o s e t o e n g a g e i n t h e m, a n d
t h e r ef o r e s c h o ol s c a n c o n diti o n p a rti ci p ati o n o n
a v oi di n g s p e e c h t h at
w o ul d u n d e r mi n e “t e a m
c o h e si o n.” B ut w hi l e s o m e c o n diti o n s m a y b e i m p o s e d
o n st u d e nt s w h o p a rti ci p at e i n e xt r a c u r ri c ul a r s , t h e
Fi r st A m e n d m e nt p r o hi bit s c o n diti o n s t h at w o ul d
r e st ri ct p a rti ci p a nt s’ Fi r st A m e n d m e nt ri g ht s o ut si d e
t h e p r o g r a m. A g e n c y f o r I nt’l D e v. v. All. f o r O p e n
S o c’ y I nt’l, I n c ., 5 7 0 U. S. 2 0 5, 2 1 4 ( 2 0 1 3); R u st v.
S ulli v a n , 5 0 0 U. S. 1 7 3, 1 9 7 ( 1 9 9 1) ( g o v e r n m e nt m a y
n ot i m p o s e a c o n diti o n o n a b e n efit t h at “ p r o hi bit[ s]
t he r e ci pi e nt f r o m e n g a gi n g i n t h e p r ot e ct e d c o n d u ct
o ut si d e t h e s c o p e o f t h e f e d e r all y f u n d e d p r o g r a m”).
T hi s p ri n ci pl e a p pli e s w h et h e r t h e b e n efit i s a
g o v e r n m e nt s u b si d y, O p e n S o ci et y , 5 7 0 U. S. 2 0 5, a
t o wi n g c o nt r a ct, B d . of C o m m’ r s v. U m b e h r , 5 1 8 U. S.
6 8 8 ( 1 9 9 6), r e gi st r ati o n of a f e d e r al t r a d e m a r k, M at al ,
41

1 3 7 S. Ct. at 1 7 6 3, o r, a s h e r e, p a rti c i p a ti o n i n a n
e xt r a c u r ri c ul a r a cti vit y.
T h u s, w hil e s c h o ol s m a y
r e g ul at e w h at a t e a m m e m b e r c a n s a y a s a
r e p r e s e nt ati v e of t h e s c h o ol o r t e a m, t h e y c a n n ot
i m p o s e a vi e w p oi nt-b a s e d r e st ri cti o n o n
w h at
st u d e nt s c a n s a y i n t h ei r p ri v at e c a p a citi e s w h oll y
o ut si d e t h e p r o g r a m. K u hl m ei e r , 4 8 4 U. S. at 2 7 1
( r e c o g ni zi n g s c h o ol’ s a ut h o rit y t o r e g ul at e s p e e c h t h at
“m e m b e r s of t h e p u bli c mi g ht r e a s o n a bl y p e r c ei v e t o
b e a r t h e i m p ri m at u r of t h e s c h o ol”).
I V.

I
S
E
A

F
P
N
P

T H E C O U R T E X P A N D S TI N K E R T O
E E C H
O U T SI D E
T H E
S C H O O L
V I R O N M E N T, I T S H O U L D L I M I T I T S
P L I C A T I O N I N T H A T C O N T E X T.

If t h e C o u rt c h o o s e s t o e x p a n d Ti n k e r b e y o n d
t h e s c h o ol e n vi r o n m e nt, it s h o ul d r e q ui r e a s h o wi n g
n ot o nl y t h at t h e s p e e c h c a u s e d “ s u b st a nti al
di s r u pti o n” o r “i nt e rf e r e d wit h t h e ri g ht s of ot h e r s,”
b ut t h at t h e st u d e nt i nt e n d e d t h at r e s ult. T h e C o u rt
h a s oft e n u s e d i nt e nt r e q ui r e m e nt s t o p r ot e ct Fi r st
A m e n d m e nt ri g ht s. S e e B r a n d e n b u r g v. O hi o , 3 9 5
U. S. 4 4 4, 4 4 7 ( 1 9 6 9)
( p e r c u ri u m) (li miti n g
“i n cit e m e nt” t o s p e e c h di r e ct e d t o c a u si n g i m mi n e nt
l a wl e s s a cti o n); N .Y . Ti m e s C o. v. S ulli v a n , 3 7 6 U. S.
2 5 4, 2 7 9 – 8 0, 2 8 3 ( 1 9 6 4) ( r e q ui ri n g “ a ct u al m ali c e” t o
li mit li b el of p u bli c fi g u r e s); S c al e s v. U nit e d St at e s ,
3 6 7 U. S. 2 0 3, 2 2 1 ( 1 9 6 1) ( a d o pti n g “ s p e cifi c i nt e nt”
st a n d a r d t o p r ot e ct ri g ht of a s s o ci ati o n). W hil e it
w o ul d n ot s ol v e all of t h e p r o bl e m s i d e ntifi e d a b o v e,
a n i nt e nt r e q ui r e m e nt w o ul d at l e a st n a r r o w t h e
st a n d a r d’ s ot h e r wi s e b o u n dl e s s a p pli c ati o n a n d g u a r d
a g ai n st t h e ri s k t h at “ di s r u pti o n” c a u s e d b y ot h e r

42

st u d e nt s’ di s a g r e e m e nt wit h t h e m e s s a g e of t h e
s p e e c h at i s s u e will j u stif y it s c e n s o r s hi p. 3 2
L o w e r c o u rt s h a v e l a r g el y h el d t h at Ti n k e r ’ s
a p pli c ati o n d o e s n ot t u r n o n a st u d e nt’ s i nt e nt. S e e,
e. g. , C uff e x r el. B. C. v. V all e y C e nt. S c h. Di st. , 6 7 7
F. 3 d 1 0 9, 1 1 3 ( 2 d Ci r. 2 0 1 2) ( e x pl ai ni n g t h at Ti n k e r
“t e st i s a n o bj e cti v e o n e, f o c u si n g o n t h e
r e a s o n a bl e n e s s of t h e s c h o ol
a d mi ni st r ati o n’ s
r e s p o n s e, n ot o n t h e i nt e nt of t h e st u d e nt”). T h at m a y
b e a p p r o p ri at e i n si d e t h e s c h o ol e n vi r o n m e nt, w h e r e
s c h o ol s
m u st oft e n t a k e p r o m pt o r i m m e di at e
m e a s u r e s. B ut if Ti n k e r i s e x p a n d e d wit h o ut a n i nt e nt
li mit ati o n, y o u n g p e o pl e will f a c e t h e ri s k of
p u ni s h m e nt a n yti m e t h e y s a y a n yt hi n g a n y w h e r e
t h at a n ot h e r st u d e nt mi g ht fi n d u p s etti n g.
A d di n g a n i nt e nt r e q ui r e m e nt t o Ti n k e r w o ul d
all o w s c h o ol s t o r e s p o n d t o t h e s p e e c h t h at p o s e s t h e
g r e at e st p r o bl e m s w hil e g u a r di n g a g ai n st t h e d a n g e r
t h at s c h o ol s will p u ni s h y o u n g p e o pl e f o r off -c a m p u s
s p e e c h m a d e wit h n o i nt e nt t o c a u s e di s r u pti o n o r
i nt e rf e r e wit h t h e ri g ht s of ot h e r s. It w o ul d r e d u c e t h e
li k eli h o o d t h at y o u n g p e o pl e will b e d et e r r e d f r o m
d e s c ri bi n g a t e a c h e r’ s s e x u al h a r a s s m e nt o r r a ci st
c o m m e nt s, o r c riti ci zi n g t h ei r s c h o ol’ s “ p oliti c al
c o r r e ct n e s s,” f o r f e a r t h at r ai si n g t h e s e i s s u e s will
c a u s e di s r u pti o n a n d r e s ult i n t h ei r p u ni s h m e nt . It
will al s o p r o vi d e s o m e p r ot e cti o n f o r i m m at u r e a n d
i m p ul si v e s p e e c h, a fi xt u r e of a d ol e s c e n c e, r e q ui ri n g
s c h o ol s t o c o u n s el st u d e nt s ( a n d p a r e nt s) a b o ut
If t h e C o u rt d e e m s a n i nt e nt t e st t o o d e m a n di n g, it s h o ul d at a
mi ni m u m r e q ui r e t h at t h e s c h o ol d e m o n st r at e t h at it r e a s o n a bl y
u n d e r st o o d t h e st u d e nt t o h a v e s p e cifi c all y i nt e n d e d “ s u b st a nti al
di s r u pti o n” o r “i nt e rf e r e n c e wit h t h e ri g ht s of ot h e r s” a n d n o t
m e r el y t h at t h o s e eff e ct s w e r e r e a s o n a bl y f o r e s e e a bl e.
32

43

mi s g ui d e d s p e e c h l a c ki n g i n di ci a of i nt e nt,
all o wi n g t h e m t o s a n cti o n p e r si st e nt vi ol ati o n s.

b ut

A n i nt e nt t e st w o ul d al s o li mit t h e p o s si bilit y
t h at y o u n g p e o pl e’ s off -c a m p u s s p e e c h will b e
p u ni s h e d b e c a u s e of di s r u pti o n s c a u s e d b y cl a s s m at e s
e x p r e s si n g di s a g r e e m e nt o r off e n s e — t h e h e c kl e r’ s
v et o. If y o u n g p e o pl e s p e a k n ot t o c a u s e d i s r u pti o n,
b ut t o e x p r e s s t h ei r p oliti c al o r r eli gi o u s vi e w s, t h e y
s h o ul d n ot b e p u ni s h e d e v e n if ot h e r s r e a ct i n a
di s r u pti v e
m a n n e r. T h e h e c kl e r’ s v et o i s s o
f u n d a m e nt all y at o d d s wit h t h e Fi r st A m e n d m e nt’ s
b e d r o c k p ri n ci pl e t h at it s h o ul d n ot b e c o u nt e n a n c e d
b e y o n d t h e s c h o ol e n vi r o n m e nt, e v e n if Ti n k e r i s i n
ot h e r r e s p e ct s e xt e n d e d.
V.

E V E N I F TI N K E R A P P LI E S WI T H O U T
M O D I F I C A T I O N T O O F F -C A M P U S S P E E C H,
T H E S C H O O L D I S T R I C T V I O L A T E D B. L.’ S
F I R S T A M E N D M E N T R I G H T S.

E v e n if t h e C o u rt a d o pt s P etiti o n e r’ s p o siti o n
t h at Ti n k e r a p pli e s h e r e, it s h o ul d affi r m t h e
j u d g m e nt b el o w. A s b ot h t h e di st ri ct c o u rt a n d J u d g e
A m b r o, c o n c u r ri n g o n t h e c o u rt of a p p e al s, c o n cl u d e d,
t h e u n di s p ut e d f a ct s e st a bli s h t h at B. L.’ s S n a p c a u s e d
n o a ct u al o r p ot e nti al s u b st a nti al di s r u pti o n. B ef o r e
t hi s C o u rt, P etiti o n e r b a r el y d ef e n d s it s a cti o n a g ai n st
B. L. a n d i n st e a d u r g e s t h e C o u rt t o r e m a n d f o r a
d et e r mi n ati o n of w h et h e r t h e Ti n k e r st a n d a r d w a s
s ati sfi e d o n t h e s e f a ct s. P et. B r. 1 1, 4 6 – 4 7. B ut n o
r e m a n d i s n e c e s s a r y b e c a u s e, a s J u d g e A m b r o n ot e d,
t hi s i s n ot e v e n a cl o s e c a s e. P et. A p p. 4 5 a. 3 3

33

T h e C o u rt i n Ti n k e r its elf f oll o w e d t h at c o u r s e. 3 9 3 U. S. at 5 0 9.

44

P etiti o n e r’ s p ri n ci p al a r g u m e nt b el o w w a s t h at
B . L. c o ul d b e p u ni s h e d u n d e r F r a s e r f o r s w e a ri n g— a n
a r g u m e nt t h at it h a s o nl y n o w a b a n d o n e d. At t h e
si n gl e e vi d e nti a r y h e a ri n g i n t hi s c a s e, t h e S c h o ol
Di st ri ct “ a d mitt e d t h at B. L w a s o nl y p u ni s h e d
b e c a u s e o f t h e p r of a nit y c o nt ai n e d wit hi n h e r S n a p,
n ot b e c a u s e t h e y h a d a r e a s o n a bl e f e a r of di s r u pti o n .”
J. A. 4 5 n. 9 ( e m p h a si s a d d e d). P etiti o n e r c o nti n u e d t o
p r e s s F r a s e r a n d p r of a nit y a s it s j u stifi c ati o n at
s u m m a r y j u d g m e nt a n d i n t h e c o u rt of a p p e al s, w h e r e
it “ p ri n ci p all y d ef e n d[ e d] it s a cti o n s b a s e d o n it s p o w e r
‘t o e nf o r c e s o ci all y a c c e pt a bl e b e h a vi o r’ b y b a n ni n g
‘ v ul g a r, l e w d, o b s c e n e, o r pl ai nl y off e n si v e’ s p e e c h b y
st u d e nt s.” P et. A p p. 1 6 a.
I n t h e c o u rt of a p p e al s, P etiti o n e r alt e r n ati v el y
a r g u e d t h at B. L. c o ul d b e p u ni s h e d u n d e r Ti n k e r
b e c a u s e h e r S n a p “ u n d e r c ut t h e ‘t e a m m o r al e’ a n d
‘ c h e mi st r y’ o n w hi c h t h e c h e e rl e a di n g p r o g r a m
d e p e n d s a n d b e c a u s e, i n t h e u ni q u e c o nt e xt of
e xt r a c u r ri c ul a r a cti viti e s, t hi s i s e n o u g h t o s ati sf y
Ti n k e r .” P et. A p p. 2 3 a n. 1 0. B ut e v e n if u n d e r mi ni n g
tea m
m o r al e a n d c h e mi st r y
w e r e s uffi ci e ntl y
di s r u pti v e t o s ati sf y Ti n k e r , t h e r e i s si m pl y n o
e vi d e n c e i n t h e r e c o r d t o s h o w t h at B. L.’ s s p e e c h
c a u s e d, o r c o ul d b e r e a s o n a bl y e x p e ct e d t o c a u s e, t h at
eff e ct. 3 4
T h e c o u rt of a p p e al s’ a s s e rti o n, r e p e at e d b y P etiti o n e r, P et. B r.
8, t h at “ B. L. d o e s n ot di s p ut e t h at h e r s p e e c h w o ul d u n d e r mi n e
t e a m m o r al e a n d c h e mi st r y,” P et. A p p. 2 3 a n. 1 0, i s n ot s u p p o rt e d
b y t h e r e c o r d. It s s o u r c e i s D ef e n d a nt’ s St at e m e nt of U n di s p ut e d
F a ct s, w hi c h st at e s t h at “t h e c o a c h e s f elt t h e n e e d t o e nf o r c e t h e
R ul e s a g ai n st B. L. ‘ t o a v oi d c h a o s a n d m ai nt ai n a t e a m -li k e
e n vi r o n m e nt.’” ¶ ¶ 5 5 – 5 6, E C F N o. 4 0. B. L. di d n ot di s p ut e “t h at
M s. L u c h ett a -R u m p t e stifi e d t h at s h e p e r s o n all y b eli e v e s t h at
iss ues
c o n c e r ni n g
n e g ati v e i nf o r m ati o n
c o m m u ni c at e d
el e ct r o ni c all y m u st b e a d d r e s s e d f o r t h e c h e e rl e a di n g c o a c h e s t o
34

45

T h e o nl y f a ct s P etiti o n e r cit e s a s e vi d e n c e of
di s r u pti o n a r e t h at: st u d e nt s a p p r o a c h e d t h e c o a c h e s
t o e x p r e s s t h ei r c o n c e r n s a b o ut t h e S n a p; st u d e nt s
w e r e “ vi si bl y u p s et ;” a n d ot h e r st u d e nt s a s k e d C o a c h
L u c h ett a -R u m p d u ri n g h e r al g e b r a cl a s s h o w s h e w a s
g oi n g t o r e s p o n d. P et. B r. 6 – 7. A s t h e di st ri ct c o u rt
f o u n d, s u c h “ g e n e r al r u m bli n g s” a r e a f a r c r y f r o m t h e
ki n d of di s r u pti o n t h e Ti n k e r C o u rt c o nt e m pl at e d.
P et. A p p. 7 3 a.
P etiti o n e r’ s a s s e rti o n t h at B. L.’ s S n a p vi ol at e d
t h e c h e e rl e a di n g r ul e s d o e s n ot alt e r t hi s r e s ult.
P et. B r. 7 ; J. A. 1 5 – 1 8. Fi r st, a s t h e c o u rt of a p p e al s
f o u n d, B. L.’ s s p e e c h di d n ot vi ol at e a n y of t h e r ul e s.
P et. A p p . 3 8 a – 4 1 a. T h e “ R e s p e ct R ul e” a p pli e s o nl y “ at
g a m e s, f u n d r ai s e r s, a n d ot h e r e v e nt s ” a n d t h e r ef o r e
di d n ot a p pl y t o B. L.’ s S n a p. P et. A p p. 3 9 a – 4 0 a
( e m p h a si s a d d e d). S h e di d n ot p o st a n y “ n e g ati v e
i nf o r m ati o n r e g a r di n g c h e e rl e a di n g . . . o n t h e
i nt e r n et,”
b ec a us e
h er
Snap
c o nt ai n e d
no
“i nf o r m ati o n” at all a n d w a s m e r el y a n e x p r e s si o n of
e m oti o n. P et. A p p. 4 0 a.
A n d t h e r ul e p r o hi biti n g
c o n d u ct t a r ni s hi n g t h e s c h o ol’ s i m a g e a p pli e d o nl y
d u ri n g t h e s e a s o n, a n d B. L. s e nt h e r S n a p aft e r t h e
s p ri n g s e a s o n h a d c o n cl u d e d a n d b ef o r e t h e f all s e a s o n
b e g a n. 3 5
‘ a v oi d ch a o s’ a n d m ai nt ai n a ‘t e a m -li k e’ e n vi r o n m e nt,” Pl .’ s R e s p.
t o D ef .’ s St mt. of U n dis p ut e d F a ct s ¶ 5 5, E C F N o. 5 0, b ut s h e di d
n ot c o n c e d e t h at t h e b eli ef w a s w ell -f o u n d e d. O n t h e c o nt r a r y,
B. L. m ai nt ai n e d t h at h e r p u ni s h m e nt w a s n ot b a s e d o n a n y
a ct u al n e g ati v e i m p a ct o n st u d e nt s a n d t h at t h e S c h o ol Di st ri ct
h a d n o r e a s o n t o b eli e v e t h at B. L.’ s S n a p w o ul d di s r u pt a n y
s c h o ol a cti viti e s. Pl .’ s St mt. of U n di s p ut e d F a ct s i n S u p p o rt of
B. L.’ s M o t. f o r S u m m. J. , ¶ ¶ 5 9– 6 1 , E C F N o. 3 9.
M o r e o v e r, gi v e n t h e r ul e s’ v a g u e n e s s, n o w ai v e r of
c o n stit u ti o n al ri g ht s c a n b e f o u n d h e r e. T hi s C o u rt ’ s e st a bli s h e d
35

46

S e c o n d, e v e n if s h e vi ol at e d a n y of t h e s e
vi e w p oi nt -b a s e d r ul e s, t h e s c h o ol c o ul d p u ni s h h e r
u n d e r Ti n k e r o nl y if t h e S n a p c a u s e d a n a ct u al o r
p ot e nti al s u b st a nti al di s r u pti o n. It di d n ot. A n d t h e
c o a c h’ s t e sti m o n y t h at B. L. w o ul d h a v e e q u all y
vi ol at e d t h e r ul e s h a d s h e w ritt e n “ C h e e r i s f u c ki n g
a w e s o m e,” J. A. 3 5, d e m o n st r at e s t h at B. L. w a s
p u ni s h e d f o r h e r c h oi c e of w o r d s, n ot f o r a n y eff e ct
t h e y h a d o n t h e c h e e rl e a di n g t e a m.
T h u s, e v e n if s o m e off -c a m p u s s p e e c h c a n b e
p u ni s h e d u n d e r Ti n k e r , B. L.’ s S n a p c a n n ot.

r ul e i s t h at a w ai v e r of F i r st A m e n d m e nt ri g ht s c a n n ot b e
p r e s u m e d i n t h e a b s e n c e of cl e a r a n d affi r m ati v e c o n s e nt. J a n u s
v. A m. F e d. of St at e, Ct y., a n d M u n. E m p s. , C o u n cil 3 1 , 1 3 8 S. Ct.
2 4 4 8, 2 4 8 6 ( 2 0 1 8) .

47

C O N C L U SI O N
T h e d e ci si o n of t h e c o u rt of a p p e al s s h o ul d b e
af fi r m e d.
R e s p e ctf ull y S u b mitt e d,
D a vi d D. C ol e
A M E RI C A N C I VI L L I B E R TI
U NI O N F O U N D A TI O N
9 1 5 1 5t h St r e et, N W
W a s hi n gt o n, D. C. 2 0 0 0 5

ES

J e n n e s a C al v o -F ri e d m a n
V e r a Ei d el m a n
A ri a n n a D e m a s
A M E RI C A N C I VI L L I B E R TI ES
U NI O N F O U N D A TI O N
1 2 5 B r o a d St r e et
N e w Y o r k, N Y 1 0 0 0 4
S et h F. K r ei m e r
3 5 0 1 S a n s o m St r e et
P hil a d el p hi a, P A 1 9 1 0 4

Wit ol d J. W al c z a k
C o u n s el of R e c o r d
S a r a J. R o s e
A M E RI C A N C I VI L L I B E R TI E S
U N I O N O F P E N N S Y L V A NI A
P O Box 23058
Pitt s b u r g h, P A 1 5 2 2 2
( 4 1 2) 6 8 1-7 7 3 6
v w al c z a k @ a cl u p a. o r g
A rl ei g h P. H elf e r I I I
T h e r e s a E. L o s c al z o
S C H N A D E R H A R RI S O N
S E G A L & L E WI S L L P
1 6 0 0 M a r k et St r e et,
S uit e 3 6 0 0
P hil a d el p hi a, P A 1 9 1 0 3

D at e: M a r c h 2 4, 2 0 2 1

48

